<html>
<title> - CYBERSECURITY: THE PIVOTAL ROLE OF COMMUNICATIONS NETWORKS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






       CYBERSECURITY: THE PIVOTAL ROLE OF COMMUNICATIONS NETWORKS

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 7, 2012

                               __________

                           Serial No. 112-123





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

77-040 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    HENRY A. WAXMAN, California
  Chairman Emeritus                    Ranking Member
CLIFF STEARNS, Florida               JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        EDOLPHUS TOWNS, New York
MARY BONO MACK, California           FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
SUE WILKINS MYRICK, North Carolina   GENE GREEN, Texas
  Vice Chairman                      DIANA DeGETTE, Colorado
JOHN SULLIVAN, Oklahoma              LOIS CAPPS, California
TIM MURPHY, Pennsylvania             MICHAEL F. DOYLE, Pennsylvania
MICHAEL C. BURGESS, Texas            JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          CHARLES A. GONZALEZ, Texas
BRIAN P. BILBRAY, California         JAY INSLEE, Washington
CHARLES F. BASS, New Hampshire       TAMMY BALDWIN, Wisconsin
PHIL GINGREY, Georgia                MIKE ROSS, Arkansas
STEVE SCALISE, Louisiana             JIM MATHESON, Utah
ROBERT E. LATTA, Ohio                G.K. BUTTERFIELD, North Carolina
CATHY McMORRIS RODGERS, Washington   JOHN BARROW, Georgia
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            DONNA M. CHRISTENSEN, Virgin 
BILL CASSIDY, Louisiana              Islands
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas
DAVID B. McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia

                                 _____

             Subcommittee on Communications and Technology

                          GREG WALDEN, Oregon
                                 Chairman
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
  Vice Chairman                        Ranking Member
CLIFF STEARNS, Florida               EDWARD J. MARKEY, Massachusetts
JOHN SHIMKUS, Illinois               MICHAEL F. DOYLE, Pennsylvania
MARY BONO MACK, California           DORIS O. MATSUI, California
MIKE ROGERS, Michigan                JOHN BARROW, Georgia
MARSHA BLACKBURN, Tennessee          DONNA M. CHRISTENSEN, Virgin 
BRIAN P. BILBRAY, California             Islands
CHARLES F. BASS, New Hampshire       EDOLPHUS TOWNS, New York
PHIL GINGREY, Georgia                FRANK PALLONE, Jr., New Jersey
STEVE SCALISE, Louisiana             BOBBY L. RUSH, Illinois
ROBERT E. LATTA, Ohio                DIANA DeGETTE, Colorado
BRETT GUTHRIE, Kentucky              JOHN D. DINGELL, Michigan
ADAM KINZINGER, Illinois             HENRY A. WAXMAN, California (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)

                                  (ii)










                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     1
    Prepared statement...........................................     4
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     6
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, opening statement...............................     6
Hon. Doris O. Matsui, a Representative in Congress from the State 
  of California, opening statement...............................     7
Hon. Lee Terry, a Representative in Congress from the State of 
  Nebraska, opening statement....................................     8
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................     8
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     9
    Prepared statement...........................................    11

                               Witnesses

Jason Livingood, Vice President, Internet Systems Engineering, 
  Comcast Corporation............................................    13
    Prepared statement...........................................    15
    Answers to submitted questions...............................   102
Edward Amoroso, Chief Security Officer, AT&T Services, Inc.......    34
    Prepared statement...........................................    36
    Answers to submitted questions...............................   106
David Mahon, Chief Security Officer, CenturyLink.................    48
    Prepared statement...........................................    50
    Answers to submitted questions...............................   110
John Olsen, Senior Vice President and Chief Information Officer, 
  MetroPCS Communications, Inc...................................    56
    Prepared statement...........................................    58
    Answers to submitted questions...............................   114
Scott Totzke, Senior Vice President, BlackBerry Security Group, 
  Research in Motion.............................................    67
    Prepared statement...........................................    69
    Answers to submitted questions...............................   118

 
       CYBERSECURITY: THE PIVOTAL ROLE OF COMMUNICATIONS NETWORKS

                              ----------                              


                        WEDNESDAY, MARCH 7, 2012

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Greg 
Walden (chairman of the subcommittee) presiding.
    Members present: Representatives Walden, Terry, Stearns, 
Shimkus, Bono Mack, Rogers, Blackburn, Bilbray, Bass, Gingrey, 
Scalise, Latta, Guthrie, Kinzinger, Eshoo, Doyle, Matsui, 
Barrow, Christensen, DeGette, Dingell, and Waxman (ex officio).
    Staff present: Ray Baum, Senior Policy Advisor/Director of 
Coalitions; Nicholas Degani, FCC Detailee; Neil Fried, Chief 
Counsel, Communications and Technology; Debbee Keller, Press 
Secretary; Katie Novaria, Legislative Clerk; Andrew Powaleny, 
Deputy Press Secretary; David Redl, Counsel, Communications and 
Technology; Roger Sherman, Democratic Chief Counsel, 
Communications and Technology; Jeff Cohen, FCC Detailee; Shawn 
Chang, Democratic Senior Counsel, Communications and 
Technology; Hadass Kogan, Democratic Legal Fellow; and Kara Van 
Stralen, Democratic Special Assistant.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. We will call to order the Subcommittee on 
Communications and Technology for a hearing on ``Cybersecurity: 
The Pivotal Role of Communications Networks.'' I want to thank 
our witnesses for being here this morning. We look forward to 
your testimony and are very appreciative of your taking the 
time to be here to help educate us so we can do the right thing 
in terms of assisting you all, particularly the security 
networks or the cyber networks.
    Back in October, the House Republican Cybersecurity Task 
Force appointed by the Speaker recommended that the committees 
of jurisdiction review cybersecurity issues. This subcommittee 
has embarked on a series of hearings to heed that call and to 
get a complete picture of the cybersecurity challenges that our 
Nation faces.
    In our February 8 hearing, we examined threats to 
communications networks and the concerns of the private sector 
security firms helping to secure those communications networks. 
That hearing provided us with valuable information and even 
some potential solutions.
    This hearing continues our subcommittee's review of 
cybersecurity issues with a focus on the steps that network 
operators have taken to secure their networks and any 
recommendations that you all might have on how Congress can 
help, actually help in those efforts.
    As we heard in the February 8 hearing, threats to 
communications networks have come a long way in a very short 
period of time. Before coming to Congress, I spent 22 years as 
a radio broadcaster, and as a small businessperson, I had to 
worry about securing our own communications network, but those 
were simpler times. In modern communications networks of all 
types, cybersecurity has become a pressing concern. In our 
February 8 hearing, we had a dizzying array of new 
cybersecurity threats discussed like supply chain 
vulnerabilities, botnets, and Domain Name System spoofing.
    On the brighter side, we were also told during that hearing 
about several potential solutions to make communications 
networks more secure. This is why I have asked a number of my 
colleagues to serve as the Communications and Technology 
Cybersecurity Working Group. The working group is a bipartisan 
team of six subcommittee members, led by Subcommittee Vice 
Chair Lee Terry and Subcommittee Ranking Member Anna Eshoo, 
that will look into some of these potential solutions and the 
legal and regulatory impediments to securing communications 
networks against cyber threats. With an eye toward incentive-
based approaches, the working group looks to facilitate 
communication among private sector companies and the public 
sector on a variety of topics, including DNSSEC adoption, 
supply chain risk management, and a voluntary code of conduct 
and best practices for network operators.
    Now, in this hearing, we are privileged to have five 
witnesses that represent parts of the commercial network to 
guide us through the complex cybersecurity issues that you each 
face. Network operators own, maintain and operate most of the 
infrastructure that makes up our communications networks. Their 
management of the wires, the towers, the base stations, the 
servers and the wireless handsets that are integral parts of 
communications networks put these companies on the front lines 
of cybersecurity. I want to know what cybersecurity services 
and educational initiatives are being aimed at your consumers, 
what steps are being taken to secure the core components that 
make up our communications networks, and what affirmative steps 
network operators have taken to secure the supply chain and to 
prevent cyber attacks.
    I would also expect to hear what you think the appropriate 
role of the Federal Government is to combat cyber threats. Are 
Federal laws and regulations helping or hindering information 
sharing? Are there cybersecurity solutions that your company 
has identified that would prevent cyber attacks, but would run 
afoul of existing laws? How can the Federal Government incent 
network operators and other members of the private sector to 
invest and innovate in the cybersecurity arena? And coming off 
of our prior hearing on February 8, how do we make sure that we 
don't put things in statute that cause misallocation of your 
capital and make you less nimble in this extraordinary cyber 
threat environment. So I look forward to your testimony today.
    [The prepared statement of Mr. Walden follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walden. I would yield time to Ms. Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman. Welcome to all of 
you, and we are deeply appreciative of your time for being 
here.
    I think one of the things that----
    Mr. Walden. Could you get a little closer to your 
microphone?
    Mrs. Blackburn. I certainly can. I am a mother. I can 
always talk louder. That is right.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    The GAO report that mentioned we have seen a 650 percent 
growth in cyber attacks over the past 5 years, I think that 
that caused a lot of people to, you know, sit up and take note 
of what might be happening out there, because you look at the 
attacks, you look at what that equates to an effect on the 
economy. Chairman Bono Mack and I are working on introducing a 
bill, the cybersecurity bill here in the House, similar to 
secure IT from the Senate, and I think the concepts we are 
viewing are not to be overly prescriptive and to kind of work 
off the first principle of ``do no harm'' and have a good, 
broad conversation in this. I would love to hear you all talk a 
little bit about government networks and the importance you 
think and responsibility you think government has in securing 
its own networks and system. I would love to also hear a little 
bit from you about incentive-based security and how we approach 
that.
    With that, I yield back.
    Mr. Walden. I thank the gentlelady for her comments and now 
recognize my friend from California, Ms. Eshoo, for an opening 
statement.

 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Eshoo. Thank you, Mr. Chairman, and welcome to all of 
the witnesses and thank you for being here today.
    As the title of today's hearing suggests, our 
communications networks are part of the backbone of our 
Nation's critical infrastructure. From electricity generation 
to financial service and transportation, we depend on our 
communications networks for nearly all aspects of our daily 
lives. Yet as was highlighted during our first cybersecurity 
hearing, our networks remain vulnerable to attack.
    In particular, there are three areas I would like to hear 
more about from our witnesses today. First, as we discussed in 
last month's hearing, the FCC chairman is currently proposing a 
voluntary ISP code of conduct as a way to alert consumers when 
a botnet or other malware infection is discovered. So today's 
witnesses will be on the front line in ensuring such best 
practices are effectively implemented and obviously I think 
that you are going to talk about that, and I look forward to 
it.
    Second, I would like to hear more about your views on the 
supply chain security. I continue to have really grave concerns 
stemming from my 8 years that I just recently completed at the 
House Intelligence Committee about the implications of foreign-
controlled telecommunications infrastructure companies 
providing equipment to the U.S. market. In 2010, I wrote to the 
FCC chairman asking for a better understanding of the FCC's 
authority to address these challenges and what kind of 
transparency requirements should be placed on companies seeking 
to sell telecommunications infrastructure equipment to U.S. 
network providers.
    Third, I would like to learn more about any unique 
challenges in securing mobile networks. As more data is 
transmitted wirelessly, we need to look closely at how these 
networks are secured to ensure they don't become the entryway 
to the broader network.
    So today's hearing is an important aspect of our 
subcommittee's work on cybersecurity. Again, I want to thank 
each one of our witnesses for being willing to testify today to 
be instructive to us, and I want to thank the chairman for the 
spirit of cooperation around this issue. Usually there are some 
Democratic witnesses that are called and Republican witnesses. 
That is not the case today. So this is something that rises 
above that, and I look forward to working with the entire 
committee so that we not only better understand the 
cybersecurity challenges facing communications networks but 
what steps we can take to secure them and thereby strengthen 
the country.
    I would like to yield my remaining time to Representative 
Matsui.

OPENING STATEMENT OF HON. DORIS O. MATSUI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Matsui. Thank you, Ranking Member Eshoo, for yielding 
me time. Mr. Chairman, thank you for holding today's hearing, 
and I want to thank the witnesses for being here today.
    There is no doubt that cyber attacks are real and continue 
to pose significant threats to several aspects of our economy, 
and Mr. Chairman, I am pleased that you and Ranking Member 
Eshoo formed a bipartisan cyber working group so that we can 
appropriately explore our subcommittee's interest to enhance 
our Nation's efforts against a cyber attack.
    There are a variety of issues that we may explore. 
Communications networks are one of the many areas that our 
Nation must protect and ensure safety and soundness. Advancing 
IP-based technologies and public safety communications heighten 
the concerns for cybersecurity. It would be important that data 
is protected from a PC or a cell phone in transit to cloud 
storage, particularly as more and more Americans send personal 
information to the cloud.
    I also believe that our subcommittee will have the ability 
to further promote information sharing on cyber threats. 
Securing the supply chain will be of high importance so that 
tech components remain secure through their manufacturing and 
distribution processes. Among others, I believe that R&D 
incentives could encourage industry to explore ways to better 
address and defend against malware and botnets.
    Again, I thank the chairman for holding today's hearing. I 
look forward to working with my colleagues on ways that this 
subcommittee can encourage greater protection against cyber 
threats. I thank the witnesses for appearing today.
    I yield back the remainder of my time.
    Mr. Walden. I thank the gentlelady for her comments.
    I will now recognize the vice chairman of the committee, 
Mr. Terry, for opening comments.

   OPENING STATEMENT OF HON. LEE TERRY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEBRASKA

    Mr. Terry. Thank you, Chairman, and let me start by saying 
that I believe that most of my colleagues on this committee 
share my optimism that a collaborative, active cyber defense 
capability is actually achievable. There might be a few 
differences in opinion on what needs to be done to reach this 
goal, but through the bipartisan conversations like those 
taking place in the working group and public hearings like 
this, we are getting closer.
    In reading through the written testimony provided by 
today's witnesses, I noticed a common threat throughout. As Mr. 
Amoroso eloquently says, ``Quite simply, innovation is 
inconsistent with standardization.'' I agree wholeheartedly 
with our witness, and in my opinion, I find this to be the most 
vital guiding principle in considering how to enhance our 
Nation's cybersecurity. In fact, as I continue to dig deeper on 
this issue, I become more convinced that any sort of 
legislative effort to provide overbroad regulation or 
certification regimes will surely come with unintended 
consequences. Instead, ISPs should have the flexibility to 
respond to real-time security threats in a manner that 
minimizes delay and maximizes their ability to innovate as they 
strive to protect their consumers and their network.
    A couple of things I believe that we can do to help reach 
the goal of collaborative active cyber defense capability are, 
one, remove the current barriers in place that prevention 
communication networks from sharing cyber threat information 
with the government agencies and also with the private sector 
entities. Provide adequate liability protection in order for 
the sharing of cyber threat information is second.
    Again, I thank our witnesses for joining us today, and 
shall I yield to Mr. Stearns.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. I thank my colleague.
    My colleagues, I think the consistent message from our 
witnesses today is that the private sector has very strong 
commercial incentives to invest in and maintain robust 
cybersecurity. In fact, each of our witnesses today has 
described unique and thorough approaches to protecting their 
own networks. These examples demonstrate that one-size-fits-all 
legislation is not the appropriate solution to cybersecurity 
threats. Moreover, because these threats change every day, 
industry must be provided the flexibility to respond quickly to 
an attack.
    Therefore, I believe that prescriptive top-down government 
mandates are not only unnecessary but they simply will not 
work. Instead, government should seek to improve information 
sharing and consumer education. We also should work to 
eliminate outdated regulations that have created unintentional 
barriers toward ensuring the security of our networks.
    So I look forward to our witnesses today and I thank you, 
Mr. Chairman, for this great hearing.
    Mr. Walden. Are there any other member seeking time on our 
side? If not, the gentleman yields back his time and I 
recognized the gentleman from California, Mr. Waxman, for an 
opening statement.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman, and I 
welcome our witnesses as well.
    I am pleased that that the subcommittee is looking at this 
issue of cybersecurity. This is our second hearing. Every week 
we learn of a new cyber breach or vulnerability, so it is vital 
that we are paying attention to this question.
    Like the smart grid, which was the topic of our last 
hearing by the subcommittee on Oversight and Investigations, 
communications networks are highly vulnerable to cyber attack. 
The potential for severe disruptions are high because 
communications networks are the common thread to all critical 
infrastructure sectors.
    In fact, the public safety legislation that was just signed 
into law exemplifies these concerns. Under the new law, first 
responders will be relying on broadband communications networks 
to secure the safety of life and property. That will strengthen 
their ability to protect the public, but only if the networks 
are protected from cyber attacks.
    Today, I look forward to continuing our discussion of the 
security threats faced by mobile devices and the proper role 
for this subcommittee in ensuring cybersecurity. Our witnesses 
today represent a broad cross-section of Internet service 
providers, as well as a handset manufacturer. This should 
further help our understanding of what risks threaten 
communications networks, what companies are doing to mitigate 
these risks, and what the subcommittee might do to assist you 
in these efforts.
    I believe the Federal Government has an important role to 
play in ensuring the cybersecurity of the Nation's 
communications networks. One important Federal role is 
developing practices that will keep the Internet safe. The 
FCC's upcoming release of its cyber best practices report, 
developed by the well-regarded Communications Security, 
Reliability and Interoperability Council, such a long name that 
is reduced to CSRIC, will provide valuable guidance to industry 
and our subcommittee.
    I understand the chairman is planning a third hearing with 
government agencies. I commend him for this series of hearings 
and look forward to what our witnesses have to tell us.
    And finally, I want to join in thanking you, Mr. Chairman, 
for organizing a bipartisan working group to study cyber 
threats and inform the subcommittee of its findings. This is a 
good opportunity for subcommittee members and staff to work 
together on an issue of common concern. I look forward to 
hearing back from the working group and exploring with the 
subcommittee potential further actions.
    Thank you for the hearing. I thank all the witnesses for 
being here. I look forward to the testimony. Yield back.
    [The prepared statement of Mr. Waxman follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walden. The gentleman yields back his time. I thank you 
for your comments. We have a lot of big brains on this 
committee and we are going to need them all to protect America, 
so thank you to the members who have agreed to serve on that 
working group.
    Gentlemen, we are delighted to have you here today. We will 
start with Mr. Livingood. We appreciate your being here, Vice 
President, Internet Systems Engineering from Comcast 
Corporation. Thank you for being here. Just a friendly 
reminder, being an old radio guy: Pull these microphones very 
close and make sure the button is lit and you will be good to 
go.

STATEMENTS OF JASON LIVINGOOD, VICE PRESIDENT, INTERNET SYSTEMS 
    ENGINEERING, COMCAST CORPORATION; EDWARD AMOROSO, CHIEF 
   SECURITY OFFICER, AT&T SERVICES, INC.; DAVID MAHON, CHIEF 
    SECURITY OFFICER, CENTURYLINK; JOHN OLSEN, SENIOR VICE 
       PRESIDENT AND CHIEF INFORMATION OFFICER, METROPCS 
COMMUNICATIONS, INC.; AND SCOTT TOTZKE, SENIOR VICE PRESIDENT, 
         BLACKBERRY SECURITY GROUP, RESEARCH IN MOTION

                  STATEMENT OF JASON LIVINGOOD

    Mr. Livingood. OK. Thank you very much, Mr. Chairman, 
Ranking Member Eshoo and members of the subcommittee for 
inviting me to discuss some of the work that Comcast is doing 
to protect consumers and cyberspace. We appreciate the 
subcommittee's interest in this issue and its willingness to 
hear the perspective of someone like me, an engineer working in 
cybersecurity and other technical Internet issues every day.
    I serve as Vice President of Internet Systems Engineering 
at Comcast, and I am the Engineering Leader in charge of our 
residential high-speed Internet service. I currently serve on 
an FCC CSRIC working group, on ICANN's Security and Stability 
Advisory Committee, on the Broadband Internet Technical 
Advisory Group, and am a member of the board of trustees of the 
Internet Society. I am also an active contributor of the 
Internet Engineering Task Force, or IETF.
    At Comcast, we take cybersecurity issues seriously, and we 
know that our customers are very concerned about security. We 
strive to provide them with the best, fastest and most secure 
Internet service possible, and our engineering team devotes 
significant time, energy and investment to constantly update 
and refine our cybersecurity efforts.
    One such threat that we focused on comes from malicious 
software called a bot. Bots run on an end user's computer 
without their knowledge and are controlled remotely. Bots are 
used to conduct identity and credit card theft, denial of 
service attacks, steal user names and passwords, and send spam. 
It is important to understand that a person need not 
consciously do something like download an app to become 
infected. Sometimes they can be infected just by visiting a Web 
site.
    To counter bots, we developed a system called Constant 
Guard. This customer-facing system first detects botnet 
traffic, notifies end users of infection such as sending them 
alerts in their web browser, and provides them with tools to 
remove those infections.
    Another area of threat is to the Domain Name System, which 
is a foundational and extraordinarily important and critical 
part of the Internet. The Domain Name System, or DNS for short, 
is responsible for basically translating names like Comcast.com 
into IP addresses, which are the addresses used to connect and 
route traffic across the Internet. So it is extremely 
important. But a vulnerability in the DNS can permit an 
attacker to inject a fake answer into the DNS. An attacker, for 
example, can then direct traffic destined to a site such as a 
banking Web site to computers that they control, perhaps to 
collect login and financial information, but the address in the 
user's web browser still appears correct.
    The long-term fix is to implement DNS security extensions, 
or DNSSEC for short. This involves someone doing two things. 
First, cryptographically signing the domain names that they own 
and then Internet service providers validating those signatures 
before connecting a user to that site. This is basically akin 
to your bank keeping your signature on file and checking the 
signature on your check against that before cashing your check.
    It is important to note that DNSSEC was developed via an 
international multi-stakeholder process at the IETF and will 
require adoption across the entire ecosystem such as by banks, 
web browsers, software companies and cloud services, not just 
ISPs. I am pleased to report as part of Constant Guard, Comcast 
was the first ISP in the United States to fully deploy DNSSEC 
in January.
    But it is important to understand that no open and 
massively interconnected network can ever be completely and 
totally secure. While there is no perfect solution to security, 
that does not mean that there are no good solutions, so our 
focus has been quite simply to roll up our sleeves and get to 
work chipping away at the security threats day in and day out, 
quickly learning and adapting. We are working within the 
industry and on a global basis to combat the key threats and to 
protect our customers the best that we can and also to help 
them protect themselves. There are powerful incentives to take 
strong and effective measures to ensure network security and 
safety. Our consumers want assurance that the networks that 
they are using are safe and secure, and we have strong reasons 
therefore to invest capital and resources into cybersecurity 
safeguards. The same is of course true for other network 
providers. We all have powerful incentives to take actions 
necessary to secure our substantial investments in our 
networks.
    Policymakers can help these efforts by removing legal 
uncertainties that can inhibit collaboration while preserving 
and strengthening this flexibility that providers have to 
develop the best solutions for each of our networks. As one of 
the members said a moment ago, there is no one-size-fits-all 
solution, so flexibility is key, and it is important because 
the threats change as rapidly as they do. Flexibility will help 
to ensure that we can continue to focus on security and 
innovation rather than compliance and regulation.
    Thank you.
    [The prepared statement of Mr. Livingood follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Walden. Thank you, sir. We appreciate your comments and 
we will get back to you with some questions on the specifics of 
what those uncertainties are in the law.
    We now are delighted to have Dr. Edward Amoroso with us. He 
is the Chief Security Officer for AT&T Services, Inc. Doctor, 
we are glad to have you here. We look forward to your comments.

                  STATEMENT OF EDWARD AMOROSO

    Mr. Amoroso. Great. Thanks. Hi, everybody. I am Ed Amoroso. 
I have spent my entire adult life in cybersecurity. In fact, 
even as a teenager, my dad was a computer scientist so I was 
logging onto ARPAnet when I was a little kid. So I have been in 
and around this forever. I started work at Bell Laboratories 
and found that I was actually a pretty good hacker, and have 
been doing so ever since and now I am the Chief Security 
Officer, so I kind of come at this with very practical 
perspective on threat.
    There are three things I want to share with you that I 
think are observations that might help you as you develop 
legislation, and they are based on empirical day-to-day, you 
know, dealings with security issues with our mobility network 
and our wireline network and the entire Fortune 1000 and lots 
of different countries we deal with, so I do that all day long 
and I wanted to share.
    And the first one is about innovation. We are being out-
innovated by our adversaries is basically the case. I mean, I 
don't know if you have ever bought a piece of furniture and 
taken it home and admired the handiwork in the furniture. That 
is what we do with malware that is being developed by 
adversaries. It is so good and so well crafted that we marvel 
at how far the adversary has come. These are not script kiddies 
doing dopey things. And these are pretty good. I don't know if 
any of you watch 60 Minutes, if you saw the Stuxnet piece. That 
is an incredible piece of computer science, that worm. So I 
think we need to recognize that whatever we do collectively as 
a Nation, we need to figure out a way to incent companies and 
universities and government agencies to innovate in this area. 
If we don't, we are going to be in trouble because I will tell 
you, and I bet everybody on the panel here would agree with me, 
the best state-of-the-art security protections that any one of 
us can put in place will not stop a determined adversary in 
2012. That is a fact, so we need to do something to get ahead 
of that, and the way you do something is, you innovate. We need 
to do something to get ahead of it, and part of the problem 
with sort of prescripting an answer to everyone, hey, we are 
all going to do the following, is it would be like every NBA 
team publishing their defense and saying this is what we are 
going to do. Guess what? You think the adversaries don't read 
your legislation? You think they don't look and see what we are 
all going to do? I mean, you lay it out and you say OK, I will 
step around these things that you are doing. I mean, that is 
just a practical issue in cybersecurity. This is not, you know, 
the kind of thing where, you know, we can all kind of do 
commonsense stuff and it will fix it. There is a million things 
in our lives where if we all go back to the basics and do a set 
of commonsense things that will make things better. We all live 
our lives that way. Cybersecurity doesn't work that way. We are 
dealing with an adversary. So the first issue is innovation.
    The second is infrastructure, and I think everybody also at 
this table would agree that complexity in infrastructure is the 
biggest problem for cybersecurity. When things get way too 
complicated, we can't keep track of it. It becomes almost 
impossible to protect something that has become so big and 
complicated that you can't get your arms around it, and part of 
the problem with things like DNSSEC and others, which clearly 
have benefit--I mean, I certainly agree with a lot of the 
points that were made--but they add complexity. Like the way to 
think of DNSSEC is, you know when you do a commercial and at 
the end you say I am such-and-such and I approved this 
commercial, that is DNSSEC. I mean, it is essentially the 
server attesting to the fact that here is a signature that I am 
who I am, but if somebody is breaking in to and owns that 
server, the signature is meaningless. It doesn't do any good. 
And I would say empirically, I see a lot more break-ins to DNS 
servers than forged, you know, different types of protocol 
responses and so on. So I think what we need to keep in mind as 
we develop legislation that when we add complexity, when you 
add things that we need to keep track of, do this, do that, 
overlay this, add this new thing, add that new thing, the 
complexity can be very stifling. You know when DNSSEC was first 
proposed? Decades ago. Right. This is not something that was 
dreamed up last week. We have been working on adding 
cryptography to Internet protocols forever, and the reason we 
don't have them today is because they are unbelievably 
complicated to run. They do add some benefit but they have side 
effects. It would be like bringing a senior citizen to the 
doctor with five ailments and the doctor says well, I am going 
to give you medicine for one of them but it has side effects. 
That is DNSSEC. It does have benefit, it has side effects, it 
doesn't fix everything, so that is the second.
    The third and last issue I want to raise is software. At 
the root of every cyber attack, every problem I have ever dealt 
with in my entire career is bad software, and I think that it 
needs to be addressed. The discipline of software engineering, 
the profession of writing software is one that is a complete 
mess right now. And I am a professor at the Stevens Institute 
of Technology. I have been teaching in the computer science 
department there for 22 years. I teach software engineering, 
teach computer security, that kind of thing, so maybe blame me, 
but the bottom line is that youngsters and even professionals 
today cannot write a non-trivial piece of software that is bug-
free and those bugs are the way our adversaries get into our 
companies. We open up Web sites because we have no choice. Are 
we going to close the Web site down? It is there and the 
software powering that has vulnerabilities we don't know about. 
I bought it, I install it, I test it, everything is great, but 
some adversary finds an open door that I don't know about, that 
the manufacturer doesn't know about, and they dance right in. 
Bad software is a fundamental problem here, and I think it 
needs to be addressed, probably through the educational system. 
Thanks.
    [The prepared statement of Mr. Amoroso follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walden. Thank you. We appreciate your comments and we 
will back to you with questions as well.
    Now we are joined by Mr. David Mahon, Chief Security 
Officer for CenturyLink. Thank you for being here. We look 
forward to your comments.

                    STATEMENT OF DAVID MAHON

    Mr. Mahon. Chairman Walden, Ranking Member Eshoo and 
members of the subcommittee, thank you for the opportunity to 
testify on this important topic.
    CenturyLink, a tier one backbone provider, provides 
communication services to over----
    Mr. Walden. We are having trouble hearing you. Is that 
light lit up there, and you really have to get really close.
    Mr. Mahon. Chairman Walden, Ranking Member Eshoo and 
members of the subcommittee, thank you for the opportunity to 
testify today on this important topic.
    CenturyLink, a tier one backbone provider, provides 
communication services to over 14 million homes and businesses 
in more than 37 States and around the world. Our services 
include voice, broadband, video entertainment and data, as well 
as fiber backhaul, cloud computing and managed security 
solutions. Our customers range from the most basic voice and 
Internet customers to the largest Fortune 500 companies and 
large government agencies. As Vice President and Chief Security 
Officer for CenturyLink, I am responsible for all corporate 
security functions including information security.
    Before joining CenturyLink, I worked for over 30 years with 
the FBI and was responsible for investigative teams and 
programs related to target attacks on the Internet, computer 
systems and networks exploited by terrorist organizations, 
criminal and intelligence operations of foreign governments, 
white-collar crime investigations, and crisis management.
    The cyber threat is real and serious. Our networks and 
those of our customers are the targets of thousands of 
cybersecurity events daily from simple port scans probing 
network defenses to sophisticated attacks. CenturyLink and our 
customers invest significant resources in ongoing efforts to 
keep those assets secure. CenturyLink uses an overarching 
governance, risk and compliance framework to ensure 
cybersecurity threats are addressed enterprise-wide. As 
stewards of the Internet infrastructure, CenturyLink's programs 
on cybersecurity fall into several general categories: 
protecting the customer, protecting our core networks and 
providing managed cybersecurity and secure communication 
services.
    We have worked extensively with our industry peers, 
partners in government and other stakeholders to strengthen our 
collective defenses against cyber attacks. From our CEO's 
participation on the President's National Security 
Telecommunications Advisory Committee to my security team's 
participation in key organizations such as DHS's Communication 
Sector Coordinating Counsel and the FBI's Domestic Security 
Alliance Council, we conduct risk assessments, information 
sharing, incident response planning and participate in 
government-sponsored cybersecurity exercises.
    In addition, CenturyLink's CEO, Glen Post, chairs the FCC's 
Communications Security, Reliability and Interoperability 
Council, which is working on voluntary best practices for 
botnet remediation, Domain Name System Security, Internet route 
hijacking, and other emerging issues unique to the 
communications industry.
    More can and should be done, but carefully. Public-private 
partnerships have yielded significant progress in the last few 
years by building a framework of collective defense and 
cooperation and helping us understand the cyber threat. As many 
of you have pointed out, we are entering into a new era of 
cybersecurity threats where our adversaries have become more 
sophisticated and determined, and the need to collectively step 
up our game is more acute.
    We are particularly encouraged by legislation like H.R. 
3523, the Cyber Intelligence Sharing and Protection Act, and 
similar provisions in Senate bills that could clarify and 
enhance cyber-related public-private information sharing.
    As communication providers, we see a number of areas where 
Congressional action can make valuable improvements to our 
Nation's cybersecurity process such as improving information 
sharing, market-based incentives and gap analysis, improving 
the Federal Government's cybersecurity posture, and expanded 
research and development.
    Shifting to a mandated-based approach would be 
counterproductive. We strongly caution against the traditional 
regulatory approach based on government mandates or performance 
requirements. Because our network is the one central asset of 
our business, CenturyLink and our industry peers already have 
the strongest commercial incentives to invest in and maintain 
robust cybersecurity. There is neither a lack of will nor a 
lack of commitment to do this among the major communications 
providers.
    At its best, cybersecurity is a dynamic, constantly 
evolving challenge best done in a collaborative partnership. At 
its worst, cybersecurity can devolve into a checklist exercise 
and diverts resources away from effective protections into 
expensive compliance measures that may be already outdated by 
the time they are implemented. We have the most knowledge of 
our network systems and databases, and we understand the most 
effective and efficient ways to protect these assets.
    We commend the members of the Energy and Commerce Committee 
for their interest in improving the Nation's cybersecurity and 
for the deliberate process the committee is undertaking to find 
the right mix of incentives and elimination of legal barriers. 
CenturyLink has strived to be a constructive partner in this 
effort, and we will continue to do so. Thank you.
    [The prepared statement of Mr. Mahon follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walden. Thank you, sir. We appreciate your testimony, 
and now we will move to Mr. John Olsen, Senior Vice President 
and Chief Security Officer for MetroPCS Communications. 
Welcome, and we look forward to your comments.

                    STATEMENT OF JOHN OLSEN

    Mr. Olsen. Thank you, Chairman Walden and Ranking Member 
Eshoo. It is an honor to appear before you and your colleagues 
today. I am the Senior Vice President and Chief Information 
Officer for MetroPCS Communications. I have nearly 30 years of 
IT experience, and I am responsible for our IT networks.
    MetroPCS is a leading provider of unlimited wireless 
communication services for a flat rate with no annual contract. 
We sell our services through our own retail stores and 
independent MetroPCS dealers to retail consumers. We do not 
sell through business-to-business sales channels or to the 
government.
    Our communications networks use four well-known and 
established network vendors: Alcatel-Lucent, Ericcson, Cisco 
and Samsung. We also purchase handsets from well-known and 
established vendors. These vendors are not our primary network 
vendors, which mitigates the risk that an embedded handset 
threat is able to exploit vulnerabilities in our network.
    Our communications networks utilize security measures 
similar to other carriers. We have also adopted measures both 
physical and logical to protect these networks. We have four IT 
networks which are critically important to our business. As we 
will discuss in more detail, we have voluntarily undertaken a 
number of cybersecurity measures to protect our IT networks, 
both physical and logical.
    Security of these critical networks is very important to 
MetroPCS. We maintain a comprehensive, holistic, risk-based 
information security program built on industry best practices 
covering people, process and technology. We use a combination 
of hardware and software services. Our security program 
directives are driven by a formal governance function and 
include, among other things, centralized policy management, 
security awareness, training, and internal and third-party 
monitoring, physical protection, threat identification and 
vulnerability management as well as intrusion prevention.
    We are particularly focused on security at the perimeter of 
our IT networks and use multi-level security technologies to 
prevent unauthorized access to our IT networks from both inside 
and outside our company. We conduct and we have third-party 
vendors conduct regular network security audits and penetration 
tests and have standardized on a single provider or all network 
equipment. Further, our IT networks are broken up into segments 
with firewalls between critical segments. Our 24/7 monitoring 
efforts, which are augmented by our cybersecurity partners, can 
generate hundreds of thousands of potential cyber threat alerts 
a day but result in just a handful of real threats, which we 
address immediately. While we cannot say definitely we have 
never had a cyber intrusion, we are not aware of any 
significant cyber intrusions or cyber attacks that have been 
successful at disrupting our IT or communication networks.
    In addition, we have also adopted a number of other 
measures to protect our customer information such as encrypting 
hard drives, installing virus and malware software, and for a 
mode access requiring two factor authentication. We also 
conduct background checks, segregate duties of personnel and 
log all access and changes to critical systems. MetroPCS has 
also implemented numerous physical security measures such as 
card key and biometric access.
    Our staff also maintains vendor-specific and industry-
recognized certifications and regularly participates in vendor-
sponsored symposiums, industry summits and conferences. We are 
involved in these groups, not because we are required to but 
because they are a valuable source of information and best 
practices.
    MetroPCS does not believe that regulation is required or 
warranted at this time, particularly for carriers that do not 
provide services to government or local public safety 
organizations. Carriers are already well incented to protect 
their networks, and this is particularly true for month-to-
month service providers like MetroPCS. If we do not provide the 
level of protection our customers want or demand, they can 
terminate service without penalty and can activate service with 
a competitor. Governmental regulations and private sector 
certifications such as PCI also force providers to invest in 
the appropriate tools and practices to detect and deter cyber 
threats.
    Market forces are better suited to respond to constantly 
changing cyber threats. If regulations are considered, MetroPCS 
urges that these requirements be flexible and tailored to the 
threat. Regulatory compliance can be particularly burdensome 
for carriers who compete by providing an affordably priced 
differentiated service for consumers.
    Unfortunately, even voluntary obligations can evolve into a 
mandate on industry. We support voluntary industry efforts, 
industry standard bodies, enhanced governmental consumer 
education and the FCC's cybersecurity stakeholder efforts along 
with government sharing of cyber threat intelligence including 
a national central clearinghouse. Finally, no carrier should be 
liable for using such information.
    Thank you again for the opportunity to testify and I look 
forward to any questions that you may have.
    [The prepared statement of Mr. Olsen follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walden. Thank you, Mr. Olsen. We appreciate your 
comments today and we will back to you with questions as well.
    Now we will turn to our final witness on the panel this 
morning, Mr. Scott Totzke, Senior Vice President, BlackBerry 
Security Group, Research in Motion, RIM. Thank you for being 
here and we look forward to your comments.

                   STATEMENT OF SCOTT TOTZKE

    Mr. Totzke. Chairman Walden, Ranking Member Eshoo, members 
of the subcommittee. Thank you very much. My name is Scott 
Totzke. I am the Senior Vice President of BlackBerry Security 
at Research in Motion, and I am pleased to be here to talk to 
you on the topic of cybersecurity.
    RIM revolutionized the mobile industry when we introduced 
the BlackBerry in 1999, and today our products and services are 
used by millions of customers around the world. There are more 
than 630 carriers and distribution partners in 175 countries 
that offer BlackBerry products and services to our customers. 
More than 90 percent of the Fortune 500 customers are 
BlackBerry customers today, and we have a longstanding 
relationship with the U.S. Federal Government including 
Congress, the Department of Defense and the Department of 
Homeland Security.
    Mobile communications face similar security risks as non-
mobile communications. Several of the same types of threats and 
attacks that have existed in traditional computing platforms 
can impact smart users today, and as the power, ubiquity and 
computing capabilities of smartphones have increased over the 
last few years, the threat matrix continues to evolve 
exponentially. Most users have yet to realize the applicability 
of both the existing and emerging threats to what is 
essentially a smaller and more mobile computing platform that 
they already have at their home or office.
    An effective and comprehensive mobile security solution 
must therefore provide protection by proventing unauthorized 
access to the smartphone and its data, to protect the data in 
transit over the wireless network and to protect the corporate 
network using features that are built into the platform. While 
technology vendors can provide components of these solutions, 
it is equally important that as a mobile technology industry, 
we help government, enterprises and consumers better understand 
the risks involved with all types of online activities.
    For our part, RIM focuses on designing secure and efficient 
solutions for enterprises and consumers. RIM has a history of 
integrating security features into its products and firmly 
believes that security technologies are an important foundation 
for a digital economy. RIM has built security features in that 
allow for data to be encrypted and protected from unauthorized 
access, to limit and control access to information on the 
smartphone by third-party applications, and to remotely erase 
sensitive information in a case where a phone is lost or 
stolen. These controls can all be centrally managed by the 
BlackBerry Enterprise Solution, which is designed to give large 
and small organizations the ability to balance individual and 
enterprise use of BlackBerry smartphones while protecting the 
privacy of their corporate and employee information.
    RIM also believes that there needs to be more focus on 
security testing and certification that establishes a baseline 
for technology vendors. Without an established baseline to 
properly gauge the security of a product or a network, it is 
difficult to make informed decisions. Vendors that work to 
certify their mobile solutions through trusted validation 
programs provide assurances to governments and consumers who 
would otherwise be unable to verify the security of the claims 
being made by the vendor.
    BlackBerry products and solutions have already received 
more security accreditations globally than any other wireless 
solutions, and our consumers value this level of transparency 
when it comes to protecting their information. We feel that 
greater adherence to security standards like FIPS would help 
customers better understand their personal and professional 
investments in protecting their information.
    Lastly, this panel has raised a number of concerns 
regarding two extremely important points related to the 
evolution of security and technology in the mobile industry 
that I would like to address. The first concern is related to 
information sharing. While there is increased competition 
between vendors, there is also an increasing degree of 
commonality in the components used by many desktop and mobile 
platforms. This directly translates into an evolving risk of 
cross-platform vulnerabilities, creating a level of shared risk 
that increases the need for vendors to work together to 
responsively disclose and address these concerns. This also 
means that programs such as RIM's information sharing program 
need to fully engage with public sector entities such as the 
US-CERT to ensure timely and bidirectional flow of security 
information.
    The second issue raised here is related to supply chain 
security and the impact it can have on the security and 
availability of networks. A product that has been modified or 
created in an authorized manner could pose security risks to 
the customer's information and to the overall posture of RIM's 
network, our carriers' networks or our customers' networks. RIM 
has been working for several years to embed network security 
elements directly into the silicon of our products and in all 
aspects of our manufacturing process to ensure that only 
authentic products are allowed to obtain network services. We 
believe that this combination of hardware security, operational 
security and manufacturing, facility security, software 
security, network security work together to mitigate many of 
the concerns about knockoff products or products that have 
otherwise been tampered with, impacting the security of our 
customers' information. We support the subcommittee's efforts 
to raise awareness of this wide-reaching impact in respect to 
supply chain-related security issues.
    Chairman Walden and members of the subcommittee, I would 
like to thank you again for the opportunity to provide RIM's 
perspective on these critical issues.
    [The prepared statement of Mr. Totzke follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walden. Mr. Totzke, thank you very much for your 
testimony. All of you, thank you very much. We appreciate your 
being here.
    I am going to lead off with questions. So Dr. Amoroso and 
Mr. Olsen, you say in your testimony that you routinely track 
threats to your networks. I assume you all do that. How can we 
facilitate information sharing among network providers of such 
information while protecting consumers' privacy and companies' 
competitively sensitive data?
    Mr. Amoroso. I think the big debate has been between 
government and industry, right, that has been the big issue. 
Like if I go to a security conference and some hacker whispers 
to me that there is a signature that I should be looking at, 
then I scribble it down, run back to my op center and put it in 
place. If a government individual does that, then I can't put 
that in the network because we would be operating as a branch 
or an agent of the government or something like that. So that 
seems to me a little silly, like that is something that 
probably ought to be addressed.
    Mr. Walden. That is the kind of specific issue we are 
trying to drill down to here. Can you give us something more 
specific? Where does that show up? Do you know statutorily?
    Mr. Amoroso. Oh, yes. I mean, like the United States 
intelligence agencies and law enforcement agencies regularly 
see different types of signatures that we don't look for. We 
are not in law enforcement. We are providing service to 
customers. We don't chase that sort of thing down. We chase it 
to the point where we can stop it, and that is it, but like 
intelligence groups will really dig down deep and see something 
that we don't. For them to share that, particularly if it is 
classified or something is awkward and it is stilted. And I 
know in my own company whenever I get involved in something 
like that, there is more lawyers involved in the discussion 
than there are people in this room right now. So, you know, it 
is almost like we are disincented to even bother. So I don't 
think it is so much whether, you know, between different groups 
we share because, frankly, we kind of do. The Internet wouldn't 
work if we weren't sharing constantly.
    Mr. Walden. But are there any prohibitions? If you spot 
something, if you go to that conference and a hacker says look 
for this signature, is that something that Mr. Olsen, Mr. Mahon 
and others should be looking for as well on their networks?
    Mr. Amoroso. I am sure they do.
    Mr. Walden. And then is there a way you can share that 
information with them or are there impediments to that kind of 
sharing?
    Mr. Amoroso. I mean, we all buy services from a lot of the 
same companies that do that. You know, we pick companies that 
do a really great job of that. I buy from three or four 
different companies that provide about the same intelligence 
everybody else is going to get. You know, it is pretty good, 
you know, and they are incented to make sure it is pretty 
useful because I pay them every month for it.
    Mr. Walden. And do the customers. And so I guess the 
question then is, there is not a problem sharing information 
back and forth?
    Mr. Amoroso. Sometimes there is, right?
    Mr. Walden. Is that a problem we should address? We are 
looking for barriers.
    Mr. Amoroso. I mean, here is the classic example. AT&T had 
an exclusive on the iPhone for some period of time, so I put a 
bunch of people down in New York City, PhDs right out of school 
and I told them find ways to filter attacks being aimed at 
iPhones, that will really help our customers, and they worked 
real hard and we came up with some, and once other carriers got 
access to the iPhone, do you really think I would want to give 
them, you know, the fruits of the work that we are doing? Their 
incentive is to do it as well and, you know, compete with us, 
and I would like my customers to say hey, I am going to stay 
with AT&T because they are really investing in doing protection 
and our competitors say the same thing, and we innovate that 
way. That is kind of--that is a case where, you know, it is not 
necessary for me to share. The market is going to force our 
competitors to want to catch up or for me to catch up to 
somebody else. That is the right balance between, I believe, 
all of us. But between government and industry, I think the 
information sharing should be more free.
    Mr. Walden. Thank you, Doctor.
    Mr. Olsen, do you want to comment on that?
    Mr. Olsen. Thank you, Mr. Chairman. At MetroPCS, besides 
our internal controls and our internal systems, we also have 
cybersecurity partners, so securing monitoring firms that we 
use to monitor our network and our systems 24 hours a day. 
Those firms do share information between them, but if I believe 
I understand your question, there is not a central 
clearinghouse for that information for the folks that are 
outside of those security companies to easily share 
information. So if Mr. Amoroso recognizes a threat or is told 
about a threat in his network, there isn't a central place 
where he could notify other companies or other carriers even in 
the same industry that this threat is out there and we should 
respond to it.
    Mr. Walden. And is there an incentive? Because I almost a 
disincentive to do that. If you have done the research, you 
identify the threat, you protect your customers, why do you 
tell other iPhone----
    Mr. Amoroso. I don't know that it is a disincentive. Keep 
in mind that when we advertise or broadcast that there is a 
threat we are worried about, you are telling the bad guys too, 
right? I mean, so it is a little--it would be a little weird to 
be too open about what you are concerned with. So I kind of 
like the existing model. I mean, I think that there are 
companies that do this. We evaluate them, and when the 
intelligence looks pretty good, we buy it.
    Mr. Walden. All right. My time is expired.
    We will turn now to the gentlelady from California, Ms 
Eshoo.
    Ms. Eshoo. Thank you to all of the witnesses. Excellent 
testimony.
    First to Mr. Livingood, I think it is really terrific that 
you are the first ISP in North America to fully implement the 
DNSSEC as you noted in your testimony. How do we encourage 
other ISPs to follow your lead? What would be--just quickly. I 
have a whole series of questions.
    Mr. Livingood. So I think on that question regarding DNSSEC 
adoption by other providers, I think it is important to keep in 
mind one thing, which is, it is not just about network 
operators, it is about banking sites, it is about other Web 
sites, software developers. A lot of people have to implement 
DNSSEC to make it work in the ecosystem. But specific to 
network operators, I would say that there is actually already a 
lot of that interaction going on already. You know, one of the 
beautiful things about the way that the Internet has worked and 
is successful is, there is a lot of these multi-stakeholder 
consensus-based organizations that groups get involved in. One 
of them in fact happens to be one of the CSRIC working groups 
that I am on, and they will be coming out with a recommendation 
soon, and a number of our companies participate----
    Ms. Eshoo. When will that be?
    Mr. Livingood. I think that it is due today, the 
recommendations.
    Ms. Eshoo. Oh, good. You never know on government time. 
Congress has an extensive network to ensure the security of our 
mobile devices and the network that they run on. I experienced 
this firsthand last year when I traveled abroad as part of a 
Congressional delegation, and my device became infected during 
the trip, and the device never left me. I mean, I practically 
slept with the thing under my pillow. It never was out of my 
purse. It was never left in the hotel. But nonetheless it was 
infected. The good news is, because of the proactive measures 
in place, the threat was detected prior to being reactivated in 
the House network. So as a company, what steps do you take to 
ensure that your customers, particularly those in smaller 
organizations, adhere to the same proactive security measures? 
And I guess my question is to Mr. Totzke, to Dr. Amoroso--I 
love your name, Amoroso--and Mr. Olsen.
    Mr. Totzke. Thank you, Congresswoman. I will go first. I 
mean, we provide a comprehensive list of guidelines for 
configuration of the device so our administrators have white 
papers and information they can access on the Web site, and our 
goal is to make sure that your administrator, your IT 
organization that looks after your device if it is a BlackBerry 
device has full control over that device at all times, so there 
is a comprehensive set of policies, more than 500 of them, that 
an administrator can send to control all aspects of the 
platform including preventing access to information or 
disallowing you the installation of software on the device. So 
we try and do that. As I think will be a common thread here, 
there is a lot of education in this industry. Security is a 
complex set of decision-making things that we have to do on a 
daily basis and a lot of risk that is really difficult for 
people to understand. We are trying to offer as much 
transparency and help to our customers through publication of 
standards and best practices and forums like this.
    Ms. Eshoo. As I understand, one way to prevent potential 
botnet activity is to isolate and block IP addresses that pose 
a threat. Do you all have the technology to do this today, and 
if so, has it been effective?
    Mr. Amoroso. I can comment. I mean, we have the technology 
to block but it doesn't work, so, you know, we can certainly--
we do try. We try real hard. Botnets all of your PCs being 
infected. That is what it is. Like we have made the mistake in 
computing of turning every person in this room into a Windows 
system administrator. That is what you do part time when you 
are not legislating. So that model is wrong, and most of you 
don't do a very good job of it, nor do I. I bet people at this 
table, we would shrug and say we probably don't do it well 
either. So we have distributed the responsibility massively and 
that risk----
    Ms. Eshoo. Is that what causes the complexity that you just 
discussed?
    Mr. Amoroso. Well, it is billions of people around planet 
Earth with PCs that are improperly protected, so it is a piece 
of cake to build a botnet. We watch botnets, you know, new ones 
every day, ones that are 50,000, 100,000 botnets we don't even 
bother naming. We just say oh, there is another one. We track 
them and just try to contain it. So it is not a matter of 
blocking the IP addresses, because we would be blocking you. 
You probably wouldn't like that. ``Sorry, you can't get on the 
Internet today. Why? It looks like you have a botnet.'' We 
would just shut the whole Internet down if we did that.
    Ms. Eshoo. In my opening statement, I mentioned the issue 
of supply chain and the security that I think really needs to 
be brought to that. First of all, do you share these concerns 
about the supply chain, and if so, what do you think would be 
the appropriate role for us to play in addressing it? I think 
it is a serious issue. Our telecommunications network that we 
came to more fully appreciate after our country was attacked 
was the system that we relied on. If we didn't have that, I 
don't know what we would have done. So I think that--and there 
are constant things that keep coming up relative to the supply 
chain. So I welcome any comments on that.
    Mr. Totzke. So I will answer that from a device 
manufacturer's standpoint. You know, this has been a concern 
for RIM for the decade-plus that I have been there. We have to 
understand where we get our components from, where we 
manufacture the devices, and when we started, it was real easy 
because we just made everything in our factory and it was all 
under our control and you grow into a global entity, you deal 
with outsourced manufacturing and kind of distributing that 
capability around the world with different partners. So it 
brings into question, you know, are you actually manufacturing 
the product you think you are making or are you getting 
something that is whole and intact. We have really focused on 
understanding what we can do to secure our products in the 
manufacturing process as well as the parts that come in. So for 
some of our strategic vendors, we are actually doing 
serialization and embedding kind of cryptographic elements in 
their silicon before it gets to us, and then our manufacturing 
process goes through a verification of every tool along the 
line, checking with RIM head office to say are you allowed to 
actually perform this operation, and the combination of 
hardware and software, so the embedded certificate is in the 
silicon. The hardware checking that the software hasn't been 
tampered with is used to authenticate the device to get 
BlackBerry services. So we know that a device hasn't been 
tampered with and it has been manufactured by RIM and it is 
intact when you first turn it on, and that authentication 
protects our network, our carrier partners' network and your 
networks, and is that hardware, software and network layer all 
working together to ensure the integrity of the BlackBerry 
services that we provide to our customers.
    Ms. Eshoo. Thank you.
    Mr. Walden. Thank you.
    We will now turn to the vice chair of the committee, Mr. 
Terry, for questions.
    Mr. Terry. Thank you, and with my 5 minutes and five 
people, I want to ask you all the same question, and that is in 
regard to the fact that you are the interface. If I want to 
have an Internet experience, I have to hire one of you. So what 
are you doing to provide me services that will protect at least 
to some extent from botnets and viruses or attacks to my 
information and my computer? And we will start from left to 
right, my left to right, Mr. Livingood.
    Mr. Livingood. Sure. Thank you. So I think we all have 
somewhat similar, you know, capabilities. It is a multilayered 
approach. There is not any one thing that is going to solve it. 
So it is sort of, you know, like an onion. There is lots of 
layers, and it is everything from intrusion protection that is 
at the edge of a network to things that provide denial-of-
service attack, you know, mitigation when you see those things 
to botnet intelligence systems that detect botnets and start to 
notify customers--I mentioned that in my opening statement--and 
then to notify customers, and there are also a number of things 
that we all do and we do in particular to educate customers, to 
help them understand what things they need to secure in their 
network, the software they need to manage, gets them the 
software that they need to secure their network and their 
computers. So it is a multilayered approach.
    Mr. Terry. Mr. Amoroso?
    Mr. Amoroso. That was exactly what we do, same thing. There 
are a lot of different products and product names. I mean, I 
will tell you the one thing we don't do, and that is, we didn't 
sell you the computer, we didn't sell you the operating system 
that runs on the computer and we didn't help you select what 
type of software to put on there, and increasingly the ISPs are 
getting dragged into that, and it is a difficult situation 
because, you know, a lot of times people will say ISP, you 
know, I got something wrong with my PCs, you guys are sitting 
off in a cloud somewhere watching, you should figure out how to 
fix my PC, and that is something all of us struggle with.
    Mr. Mahon. We do all a number of very similar things, I 
think, in the ISP world, you know, to protect particularly 
residential customers. I think you have heard the spyware, the 
anti-virus, parental controls. We all have education and 
awareness, you know, places on our Web site, our home page 
where you can go to. We have a botnet notification program. In 
fact, if your computer does become a bot on a botnet, we have a 
method to notify you and then facilitate you cleaning up your 
home device.
    Mr. Terry. Mr. Olsen?
    Mr. Olsen. I think there is a lot of commonality in the 
approaches that we are all taking. One of the distinctions that 
I made in my opening comments regarding our cybersecurity 
partners I think is really important. These are people that are 
focused, that their full-time job is cybersecurity. They are 
looking for threats all the time and they have hundreds, if not 
thousands, of customers that are feeding them information and 
they are seeing real-time threats go through many companies. So 
a threat that might hit one company, they are aware of before 
many of us would see that. So I think that information sharing 
in that cybersecurity industry is really critical and it is 
something that we value.
    Mr. Terry. All right. Mr. Totzke, you may have already 
answered this question when you were talking to Ms. Eshoo.
    Mr. Totzke. Yes. So certainly the embedded security 
elements are part of that but beyond that, you know, we have 
user- and administrator-controlled security that lets our users 
dictate what level of protection they want to put into the 
platform, and we do have services available to consumers and 
enterprises that allow for on-device encryption of data, remote 
backup, remote restore, the ability to remotely lock and wipe 
the device so you can deal with this eventuality as a mobile 
device that is going to be lost or stolen or left in a taxicab, 
so we give you the capability out of the box to deal with any 
of those eventualities.
    Mr. Terry. Good. I appreciate that. I guess the last 47 
seconds I am going to give to Mr. Amoroso. Should the 
responsibility be on the ISP providers to have a system to 
detect viruses as they enter into your network before they get 
to my computer?
    Mr. Amoroso. If we knew how to do that reliably, I would 
have been trying to sell you that years ago. It is a very 
difficult thing to detect viruses and malware. Sometimes we can 
kind of pick it up, and we do notify, just like the rest of 
them. I call 100 to 1,000 people very week. The problem is, if 
I really knew what to tell them, knew exactly how to fix their 
PC, I would call everybody. Why just restrict it to the ones 
that happen to notice active malware? We would tell everyone. 
The problem is, there isn't a person in this room that can tell 
you how to clean malware off your PC other than reimage your 
computer. You know, that is the best we can do.
    Mr. Terry. Can't we just tell you to stop it?
    Mr. Amoroso. I wish I knew what--you know, here is the 
reason we can't stop it. I don't know if you are familiar with 
the concept of an encrypted tunnel, but when you visit a Web 
site and see https, that means there is cryptography between 
you and the Web site and everybody says oh, that is really 
secure, you should look for that. The reality is, every hacker 
in the world knows to make sure they are pushing their malware 
through that encrypted tunnel because none of us can see it. So 
we can sort of block the Web site but they hide the malware in 
places we can't see. That is where anybody would go.
    Mr. Terry. Well, it is such a fun issue to deal with.
    Mr. Amoroso. Here is what--when we pick up malware, it is 
the equivalent to somebody falling over and having a heart 
attack on the table, and we all go, that is rapid response to 
preventive care. You fell over, you had a heart attack, I 
picked that up. That is easy. It is picking up the stuff that 
isn't easy, and that is why it is difficult for us to build 
reliable services that will detect malware because it is 
hidden. Any hacker would do it that way.
    Mr. Walden. Thanks.
    Mr. Doyle, you are up next.
    Mr. Doyle. I think we ought to just call him Dr. Sunshine.
    Mr. Totzke, I want to ask you about Federal workers. As you 
might know, the White House is currently working on a national 
mobility strategy to determine how the employees of the Federal 
Government are using their mobile devices, and they are going 
to decide, for example, whether all agencies can bring their 
own devices to work much like many private sector employees do. 
Now, we don't of course advocate to prescribe one particular 
type of phone for everyone to use in the Federal Government but 
what security issues do you foresee that might come up as a 
result of this if we allow all Federal workers to use their own 
mobile devices and how do you think device manufacturers can 
make sure that the data that is on the phone of Federal 
workers, especially in sensitive agencies, remains secure?
    Mr. Totzke. So as you move to more of a heterogeneous 
environment where you bring your own device for what we call 
personal liable, individual liable devices, one of the 
challenges you face is that the security of platforms is going 
to vary based on the vendor and the posture and the features 
that they built into that. So getting a consistent view of 
security and how you are protecting your information is 
probably one of the issues. There are, you know, kind of 
liability and discovery issues in more of a corporate context--
who owns the information, who owns the intellectual property if 
you have to go through any kind of a litigation, maybe not so 
much in the case of a Federal Government employee, and then how 
do you protect the information on the device, which I think is 
probably one of the more important ones. You know, there is a 
level of encryption built into BlackBerry to encrypt all of 
that data at rest, whether that is personal data or government 
data, and that is one of those that can be enforced remotely. 
But as we look at how we go into a bring-your-own device 
scenario, you know, the biggest concern that I have is this 
lack of a standard bar for protecting information, and what I 
would be most concerned about is sort of a race to the lowest 
common denominator so we have three or four competing 
platforms, so in order to allow everything we are going to 
reduce our security requirements to the bare minimum, which I 
think is the wrong thing, especially at the government level.
    Mr. Doyle. Thank you.
    Mr. Livingood, given the concerns outlined by Dr. Sunshine 
about implementing the DNSSEC, can you outline for us why 
Comcast made the decision to begin using DNSSEC and whether you 
think it has had the intended benefits that you hoped it would 
have?
    Mr. Livingood. Sure. Well, you know, the intended benefits, 
it is a long-term game there. I think one of the challenges 
with DNSSEC adoption was that you needed some critical mass for 
people to start signing their names, for people to build 
software to do that, and we felt like we could play a role in 
leading the industry in creating that critical mass. So, you 
know, that is part of the reason that we did it. I think the 
reason, you know, at root why we did that is, when the Kaminsky 
vulnerability came out in 2008, it fundamentally scared the 
heck of us. If our customers couldn't be sure that when they 
went to BankofAmerica.com it was that Web site, that scared us 
because then, you know, they are less likely to use the 
Internet, they are not going to care as much about higher-speed 
services and so on, and that is incredibly important to us. So 
to have a way--we all certainly had a short-term fix to that 
but to have a long-term fix to that we thought was incredibly 
important, and DNSSEC appears to be that one, and we are 
pleased to help lead the way and create that critical mass to 
help adoption.
    Mr. Doyle. Thank you.
    And just in closing, Dr. Amoroso, I have enjoyed your 
testimony and it makes us all realize how much work we all have 
to do together to face this problem that certainly there is no 
easy answer to. But I want to thank all the panelists for your 
testimony today. It has been very enlightening.
    I will yield back, Mr. Chairman.
    Mr. Walden. Mr. Doyle, thank you very much, and we will go 
now to Mr. Shimkus for 5 minutes.
    Mr. Shimkus. Thank you.
    I kind of want to build a little bit on what my friend Mike 
Doyle mentioned, but I want a different perspective, because it 
popped in my mind when he talked about Federal workers. Where 
are you finding your cyber warriors today from? In other words, 
where are they coming out of? Are they coming from private 
universities? Are they coming out of the military? Briefly, the 
cutting-edge new people who are helping you do this stuff, 
where are they coming from?
    Mr. Livingood. So I will start. I think it is a variety of 
places, and I would say, you know, there is a need for more 
educational focus not just in cybersecurity but ICT generally, 
but we find people in a variety of ways. Some are former 
military service members, former law enforcement. Others are 
just Linux system administrators that are interested in 
security. Others are, you know, former childhood hackers or 
something like this, and they are interested in it. So it is a 
variety of things.
    Mr. Shimkus. But is there a college path? I mean, can you 
get IT training in the business schools or computer science 
classes?
    Mr. Amoroso. I would like to comment. So I have been 
teaching at Stevens for 22 years. I teach this semester. If you 
looked at my class in 1990, you would see something that would 
look like a typical college class. I went to Dickinson, 
Pennsylvania, so pretty--a mix of kids. My class today at 
Stevens is about 98 percent foreign nationals, and I have got 
about 65 in the classroom, and almost all of them have the 
intention of leaving the country when they complete their 
master's or PhD because they see bigger opportunities 
elsewhere.
    Mr. Shimkus. Well, and that kind of segues, and if you all 
want to jump in, you can real quick, but I don't want to forget 
the aspect of compensation for people entering the private 
sector versus the government sector. There is this debate on 
salary compensation. I don't know where it is. I mean, we have 
the same issues about bringing in the best and the brightest, 
but if we are not compensating them for what the private market 
bears, then there is another thing. Does anyone want to jump 
in?
    Mr. Totzke. Just on where we source. So there is certainly 
out of the education system, out of the military and 
intelligence, we find some people kind of moving into private 
industry. The most talented guy on my team is a high school 
dropout, and so I think using the education system as a bar 
doesn't really help identify the best talent. He would be one 
of the top recognized kind of hackers and researchers in the 
world. So it varies, and I don't think you can actually teach 
somebody to be a hacker. There is sort of if you want to be a 
researcher in that area, there is an ingrained mentality you 
are either born with or not, so it is not like I am teaching 
somebody a trade like programming and getting to a level of 
sophistication in developing software. Being an attacker is a 
much different mindset.
    Mr. Shimkus. Right. Thanks.
    You know, the debate on the Senate side, and this is how 
you provide is, what happens if the Federal Government requires 
you to follow a new government security standard? What happens 
to you? That is the debate on the Senate side legislatively. 
One has a government-imposed standard. One is really, I think, 
letting you guys fight the battle yourselves. So does anyone 
want to jump in?
    Mr. Amoroso. I will offer just a brief point. My guess is, 
anything you can write down that you can think of as kind of a 
best practice is already being done here, and the things that 
we are back at the shop worrying about now are things that are 
not on your list, like as an example, we talked about botnets. 
You know when I saw the first botnet? Remember Y2K? We were 
building the Y2K White House communications fusion center, and 
we were worried that we were going to get DDoS'd for one day. 
That would be really bad if you are knocked out one day and 
miss the millennium change. You can't really move that date, 
right? So we were completely freaked out by botnets then and we 
have built--a lot of people in this room, we have built ways to 
steer traffic around and fix it and now we have a service and 
we moved on to the next thing.
    Mr. Shimkus. Yes, and let me put a final challenge out 
because I do agree, how do we incent innovation in this area, 
which is part of the opening statements. Incentivizing usually 
means government money here or government tax credits. You 
know, that is all kind of persona non grata right now in this 
new world in which we live in, so I would ask you to help us 
wrap around about this, and maybe it is easing regulatory 
burdens. Maybe there are things we can do that are not a 
dollar-cents component but tax credits, things like that. It is 
very difficult to do in today's environment. I will just throw 
that out.
    Thank you, Mr. Chairman. I yield back.
    Mr. Walden. I thank the gentleman.
    And with the committee's indulgence, Doctor, could you just 
explain DDoS?
    Mr. Amoroso. I am sorry. That stands for distributed denial 
of service. Here is how it works. When my voice talks to all of 
your ears, it is one thing to many ears and it works great if 
you are all quiet and you listen, your ears work. But if you 
could bounce my voice off your ears to him, it would sound like 
you are all shouting at him, right? My voice to all of your 
ears and then you reflect it back, that is a denial-of-service 
attack. We hit all your PCs and then tell all your PCs to shout 
this way, and boom, it all comes and it sounds like this big 
attack and it clogs the pipes and knocks them out. That is how 
it works.
    Mr. Walden. All right. Thank you, Doctor.
    Now we go to Ms. Matsui.
    Ms. Matsui. Thank you, Mr. Chairman, and this is all 
challenging and frightening at the same time here, and I do 
appreciate all of your testimony.
    I want to go into another area here. As we look into 
developing industry best practices standards for ISPs, should 
ISPs' own cloud services be included as well as other cloud 
providers or do you think because that technology is newer, it 
could be better for cloud providers to consider forming their 
own best practices to secure data in the cloud? I would like 
Mr. Mahon and Dr. Amoroso to answer that, please.
    Mr. Mahon. Well, first of all, we are already talking to 
the cloud providers, and some of us in fact are cloud 
providers. So I do think that the conversation is well 
underway. We are very familiar with the challenges, and if you 
really think about it, the term ``cloud'' is a rather generic 
term that is probably misunderstood. It can mean a number of 
different things for a different type of customer, and so 
therefore I would say we continue to include them in the 
conversation as we have everyone else, so to speak, at the 
table as partners and the solutions that you are looking for 
are really going to have to be integrated across a very wide 
platform. So therefore I would say that you would want to keep 
them in the conversation.
    Ms. Matsui. OK. Thank you.
    Mr. Amoroso. So my mother has a PC at home that at this 
instant I am sure is like attacking China or something. It is 
not administered properly and she has got, you know, a big 
tower with Verizon FIOS, the whole thing. She doesn't need 
that. She would be better much served to have a cloud provider 
just take care of all of that for her, and she should just be 
using, you know, some appliance to hit the Internet. The reason 
she doesn't is because there is software on the PC that she 
wants to be able to use that hasn't been put in the cloud. So 
in general that concept is a more secure concept than my mom 
trying to do it administration. So I think cloud in general is 
a more secure model than the one we have now.
    Ms. Matsui. Oh, OK. That is good to know.
    Dr. Amoroso, given your expertise in this area, what are 
the differences between securing wired and wireless 
communications networks and how can these differences be 
accounted for in any type of cybersecurity initiatives?
    Mr. Amoroso. Well, they are pretty big, right? The 
differences are significant. You know, if we had 3 hours, I 
could take you through the whole thing, but I will give you one 
example. Remember when--I am guessing most of you remember when 
computer security was just don't put an infected floppy in your 
computer. Remember that?
    Ms. Matsui. Yes.
    Mr. Amoroso. And it was like don't put software on your 
machine that you don't know where it came from. It seemed like 
perfectly good common sense, right? What do we do every single 
day on app stores? You know, we are downloading stuff, I don't 
know who wrote that, I don't know where it came from but boy, 
it sure looks pretty cool, I think I will download it to my 
device. That is something we are going to have to address from 
a security perspective. That is the big difference between 
wired and wireline.
    Ms. Matsui. OK. I am also thinking that so much of what we 
do is wireless, so much we do within our homes is wireless, and 
yet it is just so easy to do it that most people don't think 
about it at all, and I am concerned that we are not thinking as 
broadly as we should be thinking as far as some of the personal 
use, and I think it came about here with Mr. Doyle's too and 
the government area too. But it is so easy to be carrying 
tablets and different cell phones around, and for me, the part 
that is really to me quite frightening is that nobody knows 
what they don't know, and we are looking at you and you are 
saying too that there is a lot of things you don't know too, 
and we look upon you as experts, and I am hoping that we can 
build in some incentives here with sort of a sharing of 
information that goes beyond some of your commercial type of 
concerns. Because I am looking ahead, this is even getting more 
and more complicated as we develop more tablets and smartphones 
and whatever that we are losing control of the cybersecurity 
aspect of it, and the software aspect, I think you brought up, 
Dr. Amoroso, is really important, the education facet of that, 
and actually kind of building our principles and standards into 
that too.
    So that is just a comment, and I really do appreciate your 
being here, and I think I am learning more and more every time 
one of you opens your mouth, so thank you very much for being 
here.
    Mr. Walden. Thank you for your comments.
    We will go now to Ms. Blackburn for 5 minutes.
    Mrs. Blackburn. Thank you all so much, and I tell you what 
I think I am going to do is just ask my question, then if you 
all want to respond or respond in writing, that would be 
wonderful.
    First of all, going back to something that Mr. Shimkus 
said, I would like to hear from each of you, and you can say it 
now or send it to me, what you are seeing as the disturbing 
trends and what is kind of the next thing out there. I would 
like to know that. I would like to get an idea of how much of 
your cost of doing business is beginning to center around the 
cybersecurity issues.
    In your testimony, several of you have mentioned in one way 
or another either in response to the questions or testimony 
fear that the Federal Government could end up being more of an 
impediment than a facilitator in bolstering some of the 
cybersecurity efforts. I would like for you to speak to what 
you are concerned that we might do and then what we are not 
doing that we should be doing and hear from you in that vein 
with your consumers, I would appreciate knowing what you are 
doing to educate them. I think that one of the things that 
helps us as we work through the process is being certain that 
consumers are educated, so if I could get that bit of 
information.
    And then when we look at the hacker attacks that are out 
there, some of the anonymous attacks, some of those, there is 
one in the news today, I think there are five people that they 
are bringing forward on charges. What kind of government-
imposed performance requirements would help keep pace with some 
of the technological evolution that you are seeing in these 
cyber attacks? And if we were to do a government top-down sort 
of structure to try to deal with cyber enemies, would that be 
giving a signal to that cyber enemies? Is that kind of too much 
information for them to be able to work around?
    So those are the questions that I would love to hear from 
you on--the trends, the costs, what we are doing, what we are 
not doing, dealing with consumers, how you are educating them 
and then looking at the attacks, the cautions you would give to 
us there, and with that, anyone that wants to respond?
    Mr. Livingood. Sure, I can go first, and I will try to be 
quick so that others can answer. In terms of the positive 
things that government can do, I think making information 
sharing easier, there are a number of things there to help. I 
think that government has a role to play in education, whether 
that is PSAs or other kinds of education for, you know, end 
users, for citizens. I think there is also an opportunity to 
help incent or fund additional R&D. I know that NIST and other 
groups try to do research and security and other Internet 
futures. I think there is more than can be done there that is 
important.
    And in terms of things to be careful of or be aware of, I 
think it is to be aware of mandates and be careful of mandates. 
I think we don't want to be focused on checklists and 
compliance. We want to be focused on innovation and the threats 
of tomorrow, not sort of the threat today.
    Mrs. Blackburn. Thank you. Anyone else?
    Mr. Olsen. Well, I could just make two comments. Several of 
the questions and comments today mentioned incentives. I can 
tell you as an IT professional, we are heavily incented to make 
sure that we are protecting not only our internal resources but 
all of our partners that are interconnected with our systems. I 
think one of the things that is a little scary so far is, we 
monitor all of our customer service channels, our call centers, 
stores, Web site, and we are not seeing a lot of requests from 
our customers concerning their own security of their handsets 
and devices. So I think education is certainly going to be 
important. I think there is just not a general awareness in the 
consumer population how big an issue this is.
    Mrs. Blackburn. OK.
    Mr. Mahon. Maybe a comment more around why it is so 
difficult to regulate this arena. We have been speaking here 
rather generically about mobile devices and cybersecurity 
threats, but it is a much broader problem depending on what 
category you are looking at and because there are multiple 
categories of threat actors trying to be--finding a solution in 
a prescriptive way is very difficult. If you think about who is 
coming at you and why they are coming at you, you could have a 
nation-state coming at you for all sorts of reasons. They could 
be coming at the Federal Government for military reasons, but 
that same nation-state could be coming after a corporation for 
intellectual property, everything from understanding that that 
intellectual property is not just a 50,000 corporate 
environment, it could be in a 50-person law firm doing your M&A 
activity for you. So you have that broad landscape if you are 
looking at nation-states.
    If you are looking at criminal activity, sure, you have 
what used to be the script kiddy doing something that was 
relatively harmless and maybe at best you have hired them today 
as your network administrator if they grew up, but on the other 
hand, you have organized crime looking at more broadly the 
world and how does it make money. If you look at the recent FBI 
investigation of the DNS-changer malware that infected hundreds 
of thousands of computers, then you can take a look at your 
anonymous and others that are more hactivists trying to make a 
point, and then you come down to your insider threat in your 
companies that are doing it to you.
    So if you think about that landscape and the data that they 
are after, they are after it for sometimes different reasons. 
When you try to put a regulatory overlay on that, it is very 
difficult to put us in a position to respond to those kind of 
four broad categories, and then at the same time make sure we 
have our checklist compliance programs going. Thank you.
    Mrs. Blackburn. Thank you. Yield back.
    Mr. Walden. The gentlelady is yielding back and now 
recognize the gentlewoman from the Virgin Islands, Dr. 
Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman. Good morning, 
everyone. Thank you for being here.
    I have a couple of questions. Let me begin with Mr. 
Amoroso. You suggest in your testimony that Congress define the 
roles of the various executive branch agency in cybersecurity. 
Where do you see the FCC as an independent agency playing a 
role?
    Mr. Amoroso. Well, I don't--I mean, I don't think there is 
an agency right now that is in a good position to come in and 
solve a problem that we can't solve ourselves. I mean, if it 
really was the case where you could write out these five things 
that we should all be doing and for whatever reason--
negligence, ignorance, whatever--we are not doing it, then you 
really do need somebody in government to shake us, you know, 
into action. The problem is that we don't know what it is that 
you should be telling us we should be doing. That is why we are 
pointing to innovation as the key. So it is almost kind of a 
moot question, whether it should be DHS or FCC or whomever 
because I am not really sure what they should be telling us. 
That is the problem. And there are some things, like I said, I 
am part of the team trying to make recommendations. I am not--
you know, I don't want to lead you to believe that we are just 
kind of punting. It is such a hard problem. But I would just 
say from an agency perspective, if there was an obvious set of 
things that should be done right now, I am kind of thinking the 
groups that are here would be doing it. You know, we are 
incented to do that. That is the problem. So I hope that 
addresses the question.
    Mrs. Christensen. OK. Yes, thank you for that answer.
    Mr. Livingood, you mentioned that Comcast is an active 
participant on the FCC's Communications Security, Reliability 
and Interoperability Council. So could you just describe for us 
how you envision the council's contributing to the improvements 
in cybersecurity, especially with respect to the types of 
attacks that the council is addressing--botnets, Internet route 
hijacking, the main name fraud, et cetera?
    Mr. Livingood. Sure. There are a number of working groups. 
I am on one. One of the folks that works for me, Mike here, is 
a chair of one of them, and they focus on things like the 
security of the routing infrastructure, DNSSEC and a whole 
range of other things, and I think that, you know, that is a 
process that works pretty well. People voluntarily get involved 
and they work together on what they think the current best 
practices are, and that is a process that repeats regularly 
every year so that it is not static and it is not sort of--you 
know, in 2008, we came up with some best practices and that is 
what we are still focused on. It is something that gets renewed 
and refreshed all the time and so we can look at every new 
threat as it comes out, and that is one of many places that we 
all work together. You know, there are lots of others--the 
North American Network Operators Group, Message Anti-Abuse 
Working Group and a whole range of others, other acronyms that 
I could go on for minutes about. But I think groups like that 
are good because they are consensus-based, they are voluntary 
and they are focused on best practices and really current 
issues.
    Mrs. Christensen. And while your customers are mainly using 
your service for in-home computers, they also use the WiFi 
networks and cellular networks to access Comcast email and 
other Comcast video products, so how do you continue to ensure 
the same cybersecurity protections you develop for your core 
services extend to these uses as well?
    Mr. Livingood. So a number of our security protections are 
things that a customer can download and install on their device 
like their home computer, but we have a bunch of things that 
are on our network like our Constant Guard system, which is a 
bot intelligence and other security threat system, and that is 
there for customers that might just be bringing a device into 
their network, maybe it is a friend that is visiting their 
house and they are on their WiFi network and they happen to 
talk, say, a botnet, you know, we will see those kinds of 
things. And so, you know, we can alert customers to that. So 
whether they have installed software that we have provided on 
their device or not, we still have tools in the toolbox to 
identify that and help them--you know, tell them about it and 
help to solve it.
    Mrs. Christensen. Mr. Amoroso, you stress the need to 
foster informations sharing, and we have talked about that a 
lot here between the government and private industry as well as 
among private companies. What protections do you think are 
necessary to protect civil liberties and consumer privacy, and 
what do you believe would be the reasonable boundaries to 
liability protections and antitrust exceptions?
    Mr. Amoroso. Well, the issues you raised are the reason we 
have those impediments now because, I mean, I am an American, I 
want civil liberties, I want all those things, so that is the 
current state, that we have swung the pendulum in the direction 
of making absolutely certain that we are protecting civil 
liberties. That is a good thing. So the question is, how do we 
somehow preserve those liberties and also allow all of us, you 
know, to know if there is some malware thing. I really think we 
have to figure that one out. I am not sure I can give you a 
real good answer on how we do it, but I think it has to be a 
pretty high priority because the motivation, everybody's shakes 
and goes yes, if there is not malware, there is not really a 
civil liberties issue, Comcast should know that blah, blah, 
blah is a problem and they can code that into their system.
    So somehow we just have to maybe get the lawyers out of the 
room and come up with some kind of a commonsense approach. But 
that is the reason, all the things you listed. That is why we 
can't take those signatures today.
    Mrs. Christensen. Thank you.
    Thank you, Mr. Chairman.
    Mr. Walden. Thank you, Dr. Christensen.
    Dr. Amoroso, you should have seen the people shake behind 
you when you said get the lawyers out of the room.
    Let us go to Mr. Bass from New Hampshire.
    Mr. Bass. Thank you very much, Mr. Chairman.
    I have a couple questions for Mr. Livingood, but before I 
ask those questions, can I ask a mobile or smartphone question 
for dummies? Is there a difference in cybersecurity issues 
between an iPad or a smart device like this and a laptop or 
desktop computer? Make it quick, because I want to ask some 
other questions. Can anybody answer that question for me?
    Mr. Amoroso. Well, there is probably a firewall between 
your PC at work or something on a wired land so we can do more 
filtering and policy control. With your wireless, you go direct 
to us, to the ISP, and we have been incented and led, you know, 
particularly in Washington, push the packets, don't look at 
them, don't do anything, God forbid you impose any kind of 
policy or filtering, so we do nothing, so your connection from 
wireless is directly to the Internet whereas your wired 
connection probably has some IT group at work.
    Mr. Bass. So is this unit here exposed to bots and--is 
there a cybersecurity issue associated with my iPad?
    Mr. Amoroso. I don't know what you are connected to, but 
yes.
    Mr. Bass. Well, let us say I am connected to Comcast, which 
is what I am connected to.
    Mr. Livingood. Yes, there sure are those issues and, you 
know, I think those are a new class of device, and a lot of the 
hackers and other criminals, they are very focused on return on 
investment. They are focused where the biggest platforms are 
and so the more that those devices get out there, the bigger 
target that makes and so they will see, OK, I can spend a 
couple of days developing this and I have got a few million 
devices. So you will start to see more and more of those 
things, and depending upon the tablet that you have, some are 
more vulnerable at the moment than others, but, you know, that 
is something that a lot of Americans are buying and so that 
will be the next threat. It will be those type of devices.
    Mr. Bass. Who is responsible? Is Apple responsible for this 
or are you?
    Mr. Livingood. Well, I think it is a variety, so I think 
with that device, Apple plays a role. With the Android devices, 
Google plays a role. And then all the software vendors that 
make the apps that go on that play a role. But there is also a 
component of customer education, and I am sure over time, you 
know, just in the same way that we have software that runs on 
PCs to provide security, you know, that is going to start to 
develop and evolve for tablets and provide that extra level of 
security as well. We are at the early stages of that adoption 
curve.
    Mr. Bass. And the same is true for BlackBerry, right?
    Mr. Totzke. Well, I mean, all of the tablets are going to 
have different risks and different threats, and we look at it 
in terms of how we protect our platform. But the theme that I 
keep hearing over and over, and I think it is one that this 
committee has really highlighted, is the need for education, 
right, and when you talk about computer security, one of the 
inevitable comparisons is to driving a car, right? We don't let 
people drive a car without a license but we let them get on the 
computer, connect to the Internet and download software without 
really understanding what those risks are, and that piece of 
education--I am not suggesting we license people to use a 
computer but we do need a level of sophistication and education 
in how we inform people of risks that they have when they 
connect a device.
    Mr. Bass. Fair enough. I just want to ask a couple 
questions about the Constant Guard Protection Suite. I note in 
your testimony, Mr. Livingood, on page 6, it says ``At Comcast, 
we understand that securing cyberspace is a complex task'' and 
so forth. ''Education, prevention, detection, remediation and 
recovery are the core objectives of our anti-malware efforts.'' 
Does Comcast require its customers to download the Constant 
Guard Protection Suite, and if not, how is the customer going 
to know that it exists and how are you going to notify them 
that they have a problem?
    Mr. Livingood. So it is not required that a customer 
download that to use our service. You know, they just have to 
have normal Internet connectivity to do that. But we do a lot 
to make customers aware of that and to incent them to download 
it both before they have an issue and after. So before they 
have an issue, you know, when they are installed, they are 
given a lot of information about the things that are available 
for them and they are given links to that and so on. When they 
get a welcome email from us when they sign up for service, we 
are reiterating that for them. And we do a lot of things on our 
Web site and other places to promote the fact that these are 
available. Certainly after they have an issue and we notice it, 
we drive them to a remediation portal, and that is one of the 
first things that we recommend that they download is that suite 
and we take a number of other steps. So we do a lot of 
education upfront. We do a lot when they come on. We call it 
onboarding when they come on as a customer. And we do things 
while they are a customer to keep reiterating that and then 
afterwards.
    Mr. Bass. Real quick. It is limited to Windows operating 
system, correct? How long has it been around?
    Mr. Livingood. That protection suite is pretty recent. I 
think that is a little bit more than a year. That is a 
supplement to a larger anti-virus and security suite that we 
have had for many, many years that is----
    Mr. Bass. And real quick, because I have run out of time. 
What business incentives, if any, did you get or did you have 
in developing and offering this service?
    Mr. Livingood. Well, we view it in two ways. Number one, 
there is a competitive incentive if we can be seen as having 
more security features or more secure than the next guy, 
someone chooses us as their ISP rather than someone else, but 
the other thing is that customers when they come on board as a 
customer used to tell us that the two reasons were price and 
speed, and today, it is price, speed and security. So customers 
are very aware increasingly so, not aware as they need to be 
but very aware these days about security. They ask about those 
things when they call us up to order service. And so we view it 
as a competitive feature that we need to add, and that is why 
all of the things that we are doing as part of Constant Guard, 
DNSSEC and other things, are important to us.
    Mr. Bass. Thank you, Mr. Chairman.
    Mr. Walden. Thank you.
    Now we go to Chairman Dingell for 5 minutes.
    Mr. Dingell. Mr. Chairman, thank you.
    Gentlemen, we have much to do in little time, so I am going 
to try to ask questions that you will answer yes or no to 
starting now with Mr. Livingood. Gentlemen, you all seem to be 
in agreement that imposing new Federal cybersecurity 
regulations on industry would stifle innovation and harm 
industry's ability to protect consumers from cyber threats. Is 
that correct, yes or no, starting with you, Mr. Livingood.
    Mr. Livingood. Yes, I am concerned about that.
    Mr. Dingell. Mr. Amoroso?
    Mr. Amoroso. Yes.
    Mr. Dingell. Sir?
    Mr. Mahon. Yes.
    Mr. Dingell. Sir?
    Mr. Olsen. Yes.
    Mr. Totzke. Yes.
    Mr. Dingell. Now, gentlemen, let us assume for a moment 
that the Congress will pursue the no-regulation path in this 
matter and instead facilitates greater information sharing 
about cyber threats between industry and the government. Would 
that be your collective preference? Yes or no.
    Mr. Livingood. Yes.
    Mr. Dingell. Sir?
    Mr. Amoroso. Yes.
    Mr. Mahon. Yes.
    Mr. Olsen. Yes.
    Mr. Totzke. I would agree.
    Mr. Dingell. Gentlemen, thank you. In that case, would the 
Congress need to consider granting exemptions to the antitrust 
laws and the Federal Trade Commission Act in order to allow the 
companies to share cybersecurity information amongst 
themselves? Yes or no.
    Mr. Livingood. Yes.
    Mr. Amoroso. Yes, I think that is correct.
    Mr. Mahon. Yes.
    Mr. Olsen. Yes.
    Mr. Totzke. I unfortunately can't comment on that.
    Mr. Dingell. Very good. Now, gentlemen, similarly, do you 
believe that a safe harbor provision should be created in 
statute to permit companies to share serious cyber threat 
information with government agencies without fear of class 
action or other lawsuits being brought against them? Yes or no.
    Mr. Livingood. Yes.
    Mr. Amoroso. Yes.
    Mr. Dingell. The reporter doesn't have a nod button, sir, 
so you have to say yes or no.
    Mr. Mahon. It is a yes.
    Mr. Dingell. Thank you.
    Sir?
    Mr. Olsen. Yes.
    Mr. Totzke. I am afraid I can't comment on that. I don't 
know.
    Mr. Dingell. Now, gentlemen, my last several questions have 
been premised on a no-regulation scenario wherein the Congress 
adopts legislation to promote information sharing between 
industry and government. Would you please submit for the record 
what enforcement tools you believe the Federal Government would 
have in this scenario to ensure that industry is adequately 
guarding and being guarded against cyber threats? I am asking 
to make a submission there for the record because of the 
shortness of time.
    Now, gentlemen, let us assume that the government would 
have some role in promoting cybersecurity in the private 
sector. If the Federal Government were to require the 
promulgation of cybersecurity standards, should such standards 
preempt State laws? Starting with you, Mr. Livingood, yes or 
no?
    Mr. Livingood. Yes. It is easier to have one standard.
    Mr. Amoroso. Yes, I don't know. I am not sure. I haven't 
really thought that one through.
    Mr. Dingell. And you, sir?
    Mr. Mahon. Yes.
    Mr. Dingell. Sir?
    Mr. Olsen. I will have to agree with Dr. Amoroso. I haven't 
really considered that.
    Mr. Totzke. Yes, and I can't comment on that either.
    Mr. Dingell. Now, gentlemen, I have read with some interest 
in Mr. Olsen's testimony that, and I quote, ``the ongoing 
evaluation or MetroPCS's security program is based on periodic 
internal and third-party assessments and auditing.'' Would your 
respective companies object if such audits were government 
mandated? Yes or no.
    Mr. Livingood. No, we already provide all those things 
already. We already do that.
    Mr. Amoroso. I think we would object, yes.
    Mr. Mahon. We would object.
    Mr. Dingell. You would object?
    Mr. Totzke. Yes, we would.
    Mr. Dingell. All right. And then let me come back and ask 
you to explain that, if you please?
    Mr. Totzke. Yes, we would probably object but we do this 
anyway. We always do that.
    Mr. Dingell. Now, those who have indicated no, would you 
please explain briefly?
    Mr. Amoroso. I can explain. When you write a law, we do 
paperwork, so I take people away from doing their day-to-day 
work to sit and do work. We have an ops lab, and one of our 
favorite things to show people in the ops lab is along one of 
the walls, we have got about a mile's worth of ring binders and 
they always say there is the government paperwork followed by a 
lot of sort of chuckling laughter, but it is true. You know, we 
do have a great of paperwork that we fill out, you know, when 
we are dealing with different Federal groups or Sarbanes-Oxley 
or whatever. There is a lot of paperwork, so I am just 
suggesting that if we are already doing it and government comes 
in and says I need you to fill out this compliance checklist, 
you are taking people away from the work to do paperwork. That 
is why we would object.
    Mr. Livingood. Very quickly, if I can just make a note very 
quickly. I think this is dangerous sending an engineer 
sometimes, but I am told that we might have objections. We 
would object and have the same concerns.
    Mr. Dingell. Gentlemen, thank you.
    Mr. Chairman, thank you for your courtesy.
    Mr. Walden. Mr. Chairman, thank you for your questions. I 
think you got to the heart of the matter quickly.
    We now turn to the chairman of the House Intelligence 
Committee and a very important member of our subcommittee, Mr. 
Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. Thanks for having the 
hearing. Thanks to the witnesses as well.
    I think one of the big problems that we run into in this is 
that we haven't really sounded the alarm bell. I think in all 
of the circles of people who look at this every day, all the 
security shops, the IT security shops across America, they know 
what the problem is. Average users don't see it, and that is 
why there is no hew and cry, I think, yet about how we get this 
fixed. But I appreciate all your comments today.
    You talked, each of you, about the importance of 
information sharing and keeping it as clean and simple as you 
can. Talk about how that would work. So if we bring the folks 
together, we are sharing the government secret sauce with you 
all and you are sharing back malicious ware that maybe the 
government is not aware of, talk about how fast this is. There 
is a lot of talk about civil liberties, and I think people have 
this visual that people are reading emails, some guy named Bob 
in Cleveland is reading everybody's email to find this 
malicious software. It is not how it works. As a matter of 
fact, if that happens, it is a miserable failure. Can you talk 
just a little bit about how you envision that that would with 
the sharing arrangement, real time, no regulatory, all 
voluntary? Can you talk about that quickly?
    Mr. Amoroso. Yes, I would be happy to. First of all, I want 
to compliment you on your legislation. I think that there is 
some real nice elements in the work you have done. First of 
all, real time, absolutely. Independent auditable, I think is 
important so that somebody can come in and look a the way this 
is done, but it also has to be controlled like blasting it out, 
you know, over the Internet would be a really bad idea but I 
think you need the balance, right, this real time but also the 
ability to come back and look at the process, make sure it is 
transparent without, like I said, exposing it to our 
adversaries. That is the right way to do it.
    Mr. Mahon. There is also different levels of sharing by 
industry. I think you have to look at how you do your risk 
assessments on each category that I previously described but 
there is also right now a very good example out there of what 
is working well, and that is the defense industrial base pilot 
that is going on, and that particularly is supporting defense 
contractors and DOD, but you can expand that to the financial 
services industry and other industries.
    Mr. Rogers. And just for clarification, when we talk about 
real time, I have seen numbers as high as 100 million a second, 
the packets of information flying around. So if this is going 
to work, the malicious source code has to be compared at an 
incredibly fast rate. Can you talk about that from an 
engineering perspective? Anyone?
    Mr. Livingood. So I think one of the challenges is trying 
to do any kind of pattern matching. A lot of the malware that 
we see and have seen for a number of years is sort of what is 
called polymorphic where it changes. Every individual, you 
know, instance of it is different from the next so a lot of 
stuff changes. It is not like it is with anti-spam where you 
can match on a few key words or a file attachment and know, you 
know, that is it, that they target and flag it that way. So you 
need to come up with ways, and a number of us have systems like 
this and there are others that are in development that can do 
this on a wider basis, but that is the very challenge that you 
are getting at, which is doing that in real time. It is 
incredibly difficult and you are at the edge of computer 
science at that point.
    Mr. Rogers. Which is why I think many of you have told us 
before the legislation was written, be careful about the 
regulatory scheme. If we slow you down, if we give you another 
row of books down your mile-long hallway there, it doesn't 
work. I mean, we already have outdated what you are trying to 
accomplish in the room, and this is a value added not only for 
you but for the government, is it not? The government also gets 
benefit from the protection of all of your great work in the 
private sector, correct?
    Mr. Livingood. That is correct, and there are two things 
that I think that raises that are interesting. One is, by the 
time that a very prescriptive law would be written, by the time 
that ink was dry, the threats would have moved on and so you 
have got to be able to be flexible. The other is that we all 
need to have, you know, with our software developers and 
security specialists, you know, they need to be hard at work in 
a room, not with half a room full of lawyers with them slowing 
them down and asking questions about, you know, why are you 
doing this and that. They need to be at work every day trying 
to solve this problem.
    Mr. Rogers. And I have to say for the record, this may be 
my favorite panel of all time since I have been in Congress. 
Never so often have a group of engineers belittled lawyers at 
the table. You have warmed my heart today. We have faith that 
we are moving forward.
    I wish we had time to talk about all the issues. I am very 
curious about how you would fix the programming issue, a huge 
problem for us as we move forward. We didn't talk about 
exfiltration, which is very difficult for any of you to catch, 
which I would argue right now is the single greatest threat to 
our economy moving forward, aside of the things that we know 
today.
    Mr. Walden. Would the gentleman yield?
    Mr. Rogers. Yes.
    Mr. Walden. Could you outline exfiltration?
    Mr. Rogers. Sure. It is--we know that nation-states today 
are engaged in getting on to your network lurking. They will be 
there for a very long time. You don't know it. Your system 
administrators don't know it. These folks can't catch it. 
Sometimes the government--a lot of times the government can't 
catch it either. And then they will latch on to that 
intellectual property that is on everybody's computer today, 
all those designs, everything that is of value to that company, 
and at the right time at the right speed, they latch on to it 
and run like heck through your network and take it back. And we 
know a country like China, who is investing in this as a 
national strategy to exfiltrate intellectual property and then 
directly use that intellectual property to compete against 
United States businesses, and unfortunately, it is happening at 
a breathtaking pace, breathtaking pace, and what is concerning 
is, these folks are looking for malicious software that is 
disruptive or theft-oriented. This is very sophisticated, as 
sophisticated as any you will see, and incredibly hard to 
detect, and they really don't want to break anything. They want 
to get in and steal it without you knowing it, and that is what 
is so troubling about it.
    Hundreds and hundreds of thousands of jobs are lost every 
year for the theft of that intellectual property that is being 
reprogrammed commercially against U.S. companies. This is as 
big a problem as I have ever seen and it is one of the many 
things that keeps me up at night, Mr. Chairman, so thanks for 
letting me explain it, and it is something we didn't really get 
into today because that is really not the focus of what they 
can even watch. So that is why this information sharing I think 
is so important. It would help American businesses by the 
Federal Government having information and being able to 
identify that code, share it with the right partners. It is 
amazing what we would be able to stop.
    Mr. Walden. With the indulgence of the committee members, 
perhaps given the importance of that topic you could each if 
you have anything you want to add on that area, and then we 
will go to Mr. Stearns and Mr. Gingrey. Does anybody want to 
comment on that?
    Mr. Amoroso. I will. It is called advanced persistent 
threat, and he has got it exactly right. It is somebody 
targeting any of you, like we know the folks that you run 
around with, we can craft a fake email that looks pretty 
realistic, point you to one of these Web sites that establishes 
a tunnel. It drops a remote access tool on your PC. You know 
how you log in when you do remote access from work or from 
home, wherever you are doing it? This is the hacker now doing 
remote access to you. You are now the server, and once they are 
on, they can troll around your PC, your network and so on, and 
the intellectual property theft has become significant. It is 
probably the number one thing I bet all of us, you know, when 
we go back, we talk about bot nets here and we talk about DNS, 
but that is not what we deal with when we go back to the 
office. We are dealing with APT, which is kind of our point, 
right? We are ahead of the discussions here, things that we 
have been dealing with in the past and the things we deal with 
now are probably things we will be here testifying about 5 
years from now, so that is an issue.
    Mr. Totzke. And just to echo Dr. Amoroso, the advanced 
persistent threat, I mean, these are remarkably sophisticated 
adversaries. They are slow. They are patient. They will lurk on 
your network for years. And, you know, I came from our Canadian 
headquarters. We had a large company go out of business, 
Nortel, and part of the attribution of that is loss of their 
intellectual property to a foreign State-level adversary, you 
know, siphoning secrets right off their network.
    So when you look at that, this is a serious concern. As Ed 
mentioned, 5 years from now, you will probably be looking at 
that. That is how advanced they are. It is great that you are 
looking at it now, Congressman, because the threat is real, it 
is persistent today, and as you stated, it is a threat to jobs 
and it is an economic threat to the United States and 
elsewhere.
    Mr. Walden. Thank you.
    Mr. Rogers. Thank you, Mr. Chairman, and just for the 
record, I want to thank Mr. Mahon for his 30 years of FBI 
service as well. Thank you for all the time you have put on the 
target, sir. Thank you.
    Mr. Mahon. Thank you.
    Mr. Walden. You would think Rogers was a former FBI agent 
himself.
    Let us go to Mr. Stearns now.
    Mr. Stearns. Thank you, Mr. Chairman.
    Let me take my questions a little bit along the lines that 
my colleague from Michigan talked about when he talked about 
advanced persistent threat. Dr. Amoroso, when you did your 
opening statement, you were speaking quite eloquently in 
talking about malicious software, malware, you talked about, 
and you painted this picture that the malware itself you were 
impressed how well it was developed, put together, and you sort 
of alluded to the fact that it was almost not unpenetratable 
but it was to the point you were respectful of it and were not 
sure we were keeping up. Is that my interpretation of what you 
said?
    Mr. Amoroso. That is exactly right. We are definitely not 
keeping up. We are trying. But think of the dizzying pace of 
innovation that you see out in Silicon Valley, right? I mean, 
new things every day. The hacking and the malicious adversary 
community, they are moving at the same pace so the job we have 
is, we have got to keep up, and you would say hey, guys, you 
better be ahead of them like not even enough to just kind of 
keep up, you better be ahead. So we are always going to be sort 
of biased.
    Mr. Stearns. So you are saying you are always catching up?
    Mr. Amoroso. Let us go faster. We have to innovate. We have 
to go faster.
    Mr. Stearns. Is that true, you think you are always 
catching up then? That is what you implied to me by saying the 
respectability you had for this malware.
    Mr. Amoroso. Yes.
    Mr. Stearns. Is this true for adware, spyware, grayware, 
all these others? Is it also applicable to that too?
    Mr. Amoroso. Yes. APTs are the best, right? I mean, APT, 
this exfiltration point that the Congressman spoke about, that 
is the elite kind of attack vector in 2012.
    Mr. Stearns. OK.
    Mr. Amoroso. Spyware, maybe not so much.
    Mr. Stearns. Now, with the malware, who are these people 
that are doing this specifically? Can you name them?
    Mr. Amoroso. I can't. I am not law enforcement. You might--
--
    Mr. Stearns. Is there anybody on the panel--when Dr. 
Amoroso talked about this malware so respectfully and how 
eloquently it is put together, can anybody tell who we are 
talking about?
    Mr. Mahon. I think if you take a look at the most recent 
investigation conducted by the FBI on the DNS malware, you will 
see that was a group of individuals operating out of Estonia 
that basically sent malware to individuals in various forms in 
emails, and you clicked on it and it infected your computer in 
a way that it directed you when you went out to do a DNS-type 
search, you were looking for, I don't know, Amazon.com or some 
other company, you really went to their servers and their own 
servers were actually embedded in various locations in the 
United States.
    So these are organized crimes. They have figured out how to 
capitalize on the money you can make with the malware.
    Mr. Stearns. Are these people, for example in Estonia, are 
they part of a mafia, underground, an organization that is 
larger that just in Estonia, without you revealing any----
    Mr. Mahon. These are no longer just individual hackers. 
Individual hackers are out there but now they have actually 
formed themselves into types of federations to work together.
    Mr. Stearns. Across the world?
    Mr. Mahon. You can do it across the world. There are a 
certain hacking groups you can join and be a member from 
different countries.
    Mr. Stearns. So it is like a fraternity? You say I am a 
member of the Estonia----
    Mr. Mahon. Estonia just seems to be a hotbed right now, I 
think because of how the economy is run over there.
    Mr. Stearns. Anyone else?
    Mr. Livingood. If I could add to that, I think it is 
actually pretty interesting. This is a very large and very well 
organized underground economy. They are specialized. They have 
some people that write tools, other people that rent access to 
bot networks so you can rent botnets by the hour. You can tell 
them where you want people--where you want the bots to be, what 
kind of computers, you know, payment network mechanisms between 
these parties. So it is very sophisticated and, you know, if 
you think about from a criminal standpoint, it is a lot easier 
to get a return on investment on this type of thing than it is 
to go out and do physically oriented sort of crimes, and the 
scale is so much larger. These are folks that operate across 
borders internationally and there is just an enormous amount 
of, you know, economic incentive for them to do it, and it 
unlike APT, at least in some respects, this is primarily an 
economic crime. APT is focused certainly on economics but more 
on intellectual property or embarrassing companies. This is all 
about the money.
    Mr. Stearns. Well, I guess, Mr. Mahon, is there a 
possibility that we have terrorists involved with this that are 
part of Estonia? The terrorists could go to this group or this 
federation across and are using them? Is that----
    Mr. Mahon. Absolutely. Terrorists use these types of 
schemes for funding. Number one, they need funding for their 
operations. And number two, they use it just as a 
communications system. They know they are being looked at. So 
the ways they need to communicate are surreptitiously in a 
manner that they can't be intercepted, so they use these types 
of technologies to communicate with one another, but they have 
to fund their operations.
    Mr. Stearns. I guess the basic question is, and this is 
probably the premise of understanding what this hearing is all 
about, what could we as legislators on this subcommittee or the 
full committee or Members of Congress, what can we do to make 
it easier for you to operate and at the same time give you the 
wherewithal to compete and what should we not do? What should 
we do and what should we not do? And just as a closing 
statement, Mr. Livingood, if we could just go down the panel 
and each give what we should do and what we should not do, that 
would be helpful.
    Mr. Livingood. Sure, of course. I think what you should do 
is help make information sharing easier, remove those 
impediments. I think also there is a role for government to 
play in education, whether that is PSAs or other things, to 
raise awareness about security issues, and I think that there 
are R&D types of things through agencies that you can help fund 
to focus on this.
    I think what you should not do is focus on mandates and 
compliance. That enables us to focus instead on innovation.
    Mr. Amoroso. That sounded good. I would exactly repeat 
those comments. I will add one additional, and that is that you 
do have some influence around the Federal procurement process, 
so a lot of times we see procurements come out and we scratch 
our heads and say don't you think there ought to be, you know, 
like through GSA there is this MTIPS program, a lot of us are 
MTIPS vendors. There ought to be more business. There isn't. So 
I would recommend that that procurement process ought to be the 
most secure process in the entire world.
    Mr. Mahon. You know, I would echo what both of them said 
and just add the importance of information sharing. We have 
limited resources. We conduct risk assessments when we are 
trying to decide on impacts and probability of events based 
upon the information we have at the time. If a government 
agency or another carrier has additional information and we 
don't factor that into our analysis, we are really misaligning 
our resources and how we develop our countermeasures.
    Mr. Olsen. I think there is a lot of commonality among the 
panel here on what we would like to see. I think just add a 
little bit to the information-sharing area. I think the Federal 
Government has access to information through various agencies 
that are watching the country's cyber borders and we have seen 
in our company the vast majority of reconnaissance scams and 
attempts to gain access are coming from China and Eastern 
Europe, and I think the Federal Government would be in a good 
position to monitor and provide more information on that.
    Mr. Totzke. Going last, I get to say I agree with everybody 
else on the panel here, especially I want to hammer that 
information sharing from government to industry. The purview 
that intelligence agencies have and that you have in terms of 
what you see is much different than what we see. So my team 
works with Dr. Amoroso's team on areas of commonality between 
RIM and AT&T where we think we have issues that need to be 
addressed that impact the security of our customers but we 
don't necessary get that feedback from the government about 
what do you see that we need to be aware of, and if there is 
anything I could ask for, it is a more transparent, more real-
time information-sharing mechanism to let industry know what 
government knows so we can act to protect out networks and by 
extension protect your information.
    Mr. Walden. Thank you.
    Mr. Gingrey, thanks for your patience as we have gone 
through the hearing. You are the last----
    Mr. Gingrey. Mr. Chairman, you took the words right out of 
my mouth. I think you are exacting the last measure of patience 
out of the last member to ask a question, but I moved down here 
early in the hearing, as all of you know, because I couldn't 
hear very well, even though the chairman said speak right into 
your microphones, but I am glad I did move down close because I 
knew it was going to be interesting and I know that all five of 
you are experts who were going to have a lot of useful 
information to present to us, and quite honestly, after 2 hours 
of this, I am trying to figure out a way to beat these guys, 
and the only thing I can think of is an opportunity to invest 
in these hacking operations. I don't guess that would be legal, 
but if it were, I think that would probably be one of the best 
ways for us to win. Thank you all very much.
    Let me ask a couple of specific questions, and maybe this 
cuts a little bit to the chase of one of the main reasons why 
the chairman is holding this hearing, and each one of you, 
please, starting with Mr. Livingood, answer this for me. Do you 
believe the FCC has enough cybersecurity expertise to allay the 
concerns that some industry stakeholders have with the 
Commission? If they do choose to impose cybersecurity 
regulations on you guys, on the network providers, do you have 
enough confidence in their expertise to do that, Mr. Livingood?
    Mr. Livingood. So I don't know the answer to that. You 
know, we work with a lot of folks at the FCC and enjoy doing 
that. They have a lot of expertise. Whether they have enough 
here, I think that is a tough question. I don't know the 
answer.
    Mr. Amoroso. I have said earlier, I don't think there is 
any agency that has the right expertise to do that. If we knew 
what the answer was, we would be doing it, so I don't think it 
is a knock on any one particular agency. I just don't think 
there is any agency that has that capability right now.
    Mr. Gingrey. Mr. Mahon?
    Mr. Mahon. And I would agree with Ed. The answer is no. But 
I don't think anyone does, and I think that is the importance 
of collaborative relationships. You do need to bring people in 
from all sorts, the Federal arena as well as the private 
industry area to work together due to the evolving nature of 
the threats in this arena.
    Mr. Gingrey. Mr. Olsen?
    Mr. Olsen. Yes, it is an important question, but I would 
have to agree with Mr. Livingood. I don't know whether they do 
or not.
    Mr. Gingrey. Mr. Totzke?
    Mr. Totzke. Yes, I don't actually know either. I think what 
you are hearing here, and it is common amongst the panel, is 
the defender job, the job that we are trying to do to protect 
your information, is exceptionally hard and it is actually much 
more difficult than being on the other side.
    Mr. Gingrey. Yes, speaking of hedge funds.
    Let me go back to Mr. Olsen. In your formal testimony that 
you gave, you talked about the clearinghouse. I would like to 
know a little bit more about that specifically, and do you 
think that would be helpful? And maybe you could elaborate a 
little bit more on that.
    Mr. Olsen. I think there is really two aspects to that. One 
is where the Federal Government is sharing with private sector, 
with industry, what they are seeing as far as threats, and I 
mentioned a little while ago about the threats from outside the 
United States, so I think that is a critical component. The 
other is where companies should share, private companies could 
share information on threats that they are seeing and that 
clearinghouse would have to be sponsored by somebody, and I 
think the Federal Government is really the right place to do 
that.
    Mr. Gingrey. And I think you addressed also in your 
testimony the hold-harmless provision that would be necessary 
to share that information so that you wouldn't be subject to 
lawsuits and that sort of thing.
    Mr. Olsen. Yes, sir.
    Mr. Gingrey. I have got a little time left. I have one more 
question then. The Internet is currently transitioning from 
this Internet provider v4 to v6 addressing. Does that process 
create any new cybersecurity issues, and will transitioning 
alone solve any cybersecurity issues that currently exist? Does 
the process of transitioning present opportunities to resolve 
existing cybersecurity issues? We will start with Mr. Livingood 
and just go down the line.
    Mr. Livingood. Sure. I think, you know, we have been a 
leader in IPv6. You know, I think that all of those issues that 
exist in the current Internet and IPv4 simply carry over to 
IPv6. It is just a new form of addressing. You know, that being 
said, because it is a new form of addressing a new technology, 
you are introducing new things into the ecosystem. To Dr. 
Amoroso's point earlier, it is a complex ecosystem. When you 
change something, it can have unintended consequences. And so 
it is something that you have to keep an eye on and make sure 
that you are not introducing any new vulnerabilities. But I 
think if there were any, it is simply because, you know, some 
security that worked great in IPv4 might not have all the same 
features.
    Mr. Gingrey. Dr. Amoroso?
    Mr. Amoroso. Every device on the planet running v6 in 
theory would be addressable, would be routable, and that is a 
pretty dangerous situation, so for all of us, we have to figure 
out how to architect security protections around that. So I do 
have some concerns about the v6 transition.
    Mr. Gingrey. Mr. Mahon?
    Mr. Mahon. Yes, the architect and engineering teams are 
still working through this, but as they have said, you have 
legacy systems being married up with new evolving technology, 
and whenever you do that, you are going to have things evolve 
as you begin to deploy it.
    Mr. Gingrey. Mr. Olsen?
    Mr. Olsen. I think from a protection standpoint, I think it 
is a step ahead, but the bad guys are out there working just as 
hard as we are to find another way around that, so as soon as 
we make an advancement in technology, they are right out there 
keeping pace with us.
    Mr. Gingrey. And finally, Mr. Totzke?
    Mr. Totzke. And this just, as Ed said, expands the attack 
surface and by doing so increases the risk, so we have new and 
unknown risks that we are going to have to figure out how to 
mitigate.
    Mr. Gingrey. Mr. Chairman, thank you for your generosity of 
those 45 extra seconds, and I will yield back.
    Mr. Walden. Actually, you got close to 49. Thank you, Mr. 
Gingrey, for staying and participating.
    I want to thank all of our witnesses and all the folks 
behind them who I am sure played some role, but we really 
appreciate your insights. It is very helpful in our effort. 
Obviously, we are trying to do the right thing and you are out 
there fighting the battle every day, and we don't want to get 
in your way. And so we may be back to you with our working 
group digging a little deeper on some of these issues and 
getting as specific as possible. We hope to look out too at 
some of the other types of networks and small providers. I 
mean, you obviously represent major providers or a 
representation of them. We are also wondering about the weakest 
link, which might be small ISPs and how do they deal with this 
and do they have the same sorts of capabilities to fight back.
    Anyway, I deeply appreciate your willingness to be here 
today and share your knowledge with us. We are better for it.
    So with that, the Subcommittee on Communications and 
Technology stands adjourned.
    [Whereupon, at 12:13 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
